<html>
<title> - OPERATION SOMETHING BRUIN</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


                       OPERATION SOMETHING BRUIN

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                         GOVERNMENT OPERATIONS

                                 OF THE

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 19, 2015

                               __________

                           Serial No. 114-48

                               __________

Printed for the use of the Committee on Oversight and Government Reform

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]



         Available via the World Wide Web: http://www.fdsys.gov
                      http://www.house.gov/reform
              
              
                             ______________
                             
                      U.S. GOVERNMENT PUBLISHING OFFICE
97-400 PDF                 WASHINGTON : 2015                      
_______________________________________________________________________________________              
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="c3a4b3ac83a0b6b0b7aba6afb3eda0acaeed">[email&#160;protected]</a>  
              
              
              
              
              
              
              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                     JASON CHAFFETZ, Utah, Chairman
JOHN L. MICA, Florida                ELIJAH E. CUMMINGS, Maryland, 
MICHAEL R. TURNER, Ohio                  Ranking Minority Member
JOHN J. DUNCAN, Jr., Tennessee       CAROLYN B. MALONEY, New York
JIM JORDAN, Ohio                     ELEANOR HOLMES NORTON, District of 
TIM WALBERG, Michigan                    Columbia
JUSTIN AMASH, Michigan               WM. LACY CLAY, Missouri
PAUL A. GOSAR, Arizona               STEPHEN F. LYNCH, Massachusetts
SCOTT DesJARLAIS, Tennessee          JIM COOPER, Tennessee
TREY GOWDY, South Carolina           GERALD E. CONNOLLY, Virginia
BLAKE FARENTHOLD, Texas              MATT CARTWRIGHT, Pennsylvania
CYNTHIA M. LUMMIS, Wyoming           TAMMY DUCKWORTH, Illinois
THOMAS MASSIE, Kentucky              ROBIN L. KELLY, Illinois
MARK MEADOWS, North Carolina         BRENDA L. LAWRENCE, Michigan
RON DeSANTIS, Florida                TED LIEU, California
MICK MULVANEY, South Carolina        BONNIE WATSON COLEMAN, New Jersey
KEN BUCK, Colorado                   STACEY E. PLASKETT, Virgin Islands
MARK WALKER, North Carolina          MARK DeSAULNIER, California
ROD BLUM, Iowa                       BRENDAN F. BOYLE, Pennsylvania
JODY B. HICE, Georgia                PETER WELCH, Vermont
STEVE RUSSELL, Oklahoma              MICHELLE LUJAN GRISHAM, New Mexico
EARL L. ``BUDDY'' CARTER, Georgia
GLENN GROTHMAN, Wisconsin
WILL HURD, Texas
GARY J. PALMER, Alabama

                    Sean McLaughlin, Staff Director
                 David Rapallo, Minority Staff Director
                        Melissa Beaumont, Clerk
            Ryan Hambleton, Senior Professional Staff Member
Jeffrey Post, Deputy Staff Director for the Subcommittee on Government 
                               Operations
                 Subcommittee on Government Operations

                 MARK MEADOWS, North Carolina, Chairman
JIM JORDAN, Ohio                     GERALD E. CONNOLLY, Virginia, 
TIM WALBERG, Michigan, Vice Chair        Ranking Minority Member
TREY GOWDY, South Carolina           CAROLYN B. MALONEY, New York
THOMAS MASSIE, Kentucky              ELEANOR HOLMES NORTON, District of 
MICK MULVANEY, South Carolina            Columbia
KEN BUCK, Colorado                   WM. LACY CLAY, Missouri
EARL L. ``BUDDY'' CARTER, Georgia    STACEY E. PLASKETT, Virgin Islands
GLENN GROTHMAN, Wisconsin            STEPHEN F. LYNCH, Massachusetts
                           
                           C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on June 19, 2015....................................     1

                               WITNESSES

Mr. Russell McLean, Attorney
    Oral Statement...............................................     4
    Written Statement............................................     7
Mr. Allyn Stockton, Attorney
    Oral Statement...............................................     8
    Written Statement............................................    10
Mr. Charles Anthony Smith, Acquitted of Charges Related to 
  Operation Something Bruin
    Oral Statement...............................................    16
    Written Statement............................................    18
Mr. Luis J. Santiago, Special Agent-in-Charge, Atlanta Regional 
  Office, U.S. Fish and Wildlife Service
    Oral Statement...............................................    40
    Written Statement............................................    42
Mr. Tony Tooke, Regional Forester, Southern Region, USDA Forest 
  Service
    Oral Statement...............................................    46
    Written Statement............................................    49
Mr. Gordon Myers, Executive Director, North Carolina Wildlife 
  Resources Commission
    Oral Statement...............................................    52
    Written Statement............................................    54
Major Stephen Adams, Law Enforcement Division, Georgia Department 
  of Natural Resources
    Oral Statement...............................................    57
    Written Statement............................................    60

                                APPENDIX

June 1, 2015 Letter from Colonel Eddie Henderson at the Georgia 
  Department of Natural Resources Law Enforcement Division to the 
  Committee......................................................    84
June 4, 2015 Letter from Todd Batta at the U.S. Department of 
  Agriculture to Chairman Mark Meadows...........................    85
The Cooperative Agreement between the U.S. Forest Service Law 
  Enforcement and Investigations and the North Carolina Wildlife 
  Resources Commission...........................................    86
U.S. District Court, Western District of North Carolina, Policies 
  and Procedures Governing Prosecution and Adjudication of Petty 
  Offenses in the Western District of North Carolina.............    95

 
                       OPERATION SOMETHING BRUIN

                              ----------                              


                         Friday, June 19, 2015

                  House of Representatives,
              Subcommittee on Government Operations
               Committee on Oversight and Government Reform
                                                   Washington, D.C.
    The Subcommittee met, pursuant to call, at 10:07 a.m., in 
the Historic Haywood County Courthouse, 215 North Main Street, 
Waynesville, North Carolina, Hon. Mark Meadows [Chairman of the 
Subcommittee] presiding.
    Present: Representative Meadows.
    Also Present: Representatives Duncan and Collins.
    Staff Present: Melissa Beaumont, Ryan Hambleton and Jeffrey 
Post
    Mr.  Meadows.  The Subcommittee on Government Operations 
will come to order and without objection, the Chair is 
authorized to declare a recess at any time.
    Before I give my opening statement, if indeed you have to 
take a cell phone call, we ask that you would step outside and 
that you move not just outside the room there. The acoustics 
can be very bad sometimes, so we can actually hear your 
conversation. So if you have got to have a conversation or a 
cell phone call, we ask that you move out and kind of down onto 
the landing outside this particular facility.
    Good morning to everyone. I am excited to be here in a 
field hearing here in Waynesville, at the historic Haywood 
County Courthouse. In order for this to happen, we had to rely 
on people here in the county. And it is my great honor to thank 
Sheriff Christopher and his team and the courthouse staff here. 
They have been great. I want to not only sincerely thank them 
for their assistance, but truly for their service to the public 
each and every day. I also want to thank the public, all of 
you, for coming out. I hope that you will find that this is a 
valuable investment of your time and shine some light on a 
situation. We have a great crowd here, I am very grateful that 
you would come out.
    I also want to mention that this is a honest-to-goodness 
Congressional hearing and just like the ones we would have in 
Washington, D.C. Because of this, we need to treat it like one 
and so we will have two panels of witnesses. Our first panel is 
here already. We have members of Congress that are here today. 
They will have a chance to ask them questions. But this is not 
really a town hall and so unfortunately, we are not going to 
have time for, you know, opinions to be given from the 
audience. It is not a forum like that. Hopefully we will be 
able to ask questions and have the responses.
    If you have a burning question that you want to get asked, 
that you feel like has not been asked, we will actually hold 
the record open where either Congressman Duncan or Congressman 
Collins or myself can actually work together to make sure that 
those questions are asked for the record.
    So I would appreciate your cooperation. Even though this 
can be a very contentious and emotional issue, I ask that you 
show the rest of the world the kind of Southern hospitality 
that we are used to here in the mountains of western North 
Carolina.
    Perhaps the best thing about holding a field hearing is 
that it gives Congress a chance to look at things that have 
happened outside of that beltway in Washington, D.C. You know, 
there are a lot of things that happen on the national news and 
yet Operation Something Bruin is a good example of something 
that has happened here in western North Carolina and north 
Georgia.
    As many of you are familiar, back in the 1980s, the federal 
and state authorities undertook Operation Smoky that stopped 
some illegal, at that point, harvesting of black bears in and 
around the Great Smoky Mountain National Park. That was a 
successful operation that caught a lot of people that were 
indeed breaking the law.
    However, about five years ago, many of these same agencies 
began investigating bear poaching again. A new operation was 
begun lasting from 2009 through 2013 that covered western North 
Carolina and northern Georgia. It primarily involved the U.S. 
Forest Service, U.S. Fish and Wildlife, the Georgia Department 
of Natural Resources and the North Carolina Wildlife Resource 
Commission. It was named Operation Something Bruin. We are 
joined by representatives of each of these agencies here today. 
I want to thank them for their time that they came to appear 
here. But before I continue, I want to make a few things clear.
    First, I support our law enforcement officers, both state 
and federal. In particular, I want to thank them for their role 
in protecting not only lands and wildlife but the people that 
they serve. And in some cases, their work can be dangerous as 
has happened even recently over in Henderson County, their work 
can be very dangerous. And so I appreciate their willingness to 
endure all those things and the dedication that they show to do 
that.
    I also want to take a moment to recognize the hard work of 
the state and federal prosecutors who try the cases brought 
before them by the law enforcement officers. They are all 
keeping us safe and protected and in this particular case 
trying to protect our lands and wildlife.
    And finally, there have been many instances in the case of 
Operation Something Bruin where real crimes were committed and 
these people need to be punished. We have laws for a reason, we 
have a criminal justice system that enforces these laws, and 
those are good things.
    With this said though, I do believe that some of the 
conduct of Something Bruin needs to be examined. Over the last 
few years, there has been a tremendous amount of media coverage 
on how this operation was handled. We will hear from witnesses 
today and their representatives about the specifics. However, 
over the years, I have heard complaints about arrestees being 
entrapped, other coerced, and charges of the arrestees being 
taken into custody in an extremely aggressive fashion. I have 
heard about defendants receiving extremely harsh punishment for 
petty crime offenses and undercover officers essentially 
committing most of the hunting violations.
    I hope that this morning we can shed some light on how this 
state-federal operation was held. Moreover, if we can find 
things that were not handled properly, I plan on working to 
improve the system and prevent mistakes like this from 
happening again in the future.
    Now I am pleased today to be joined by some of my 
colleagues that are not just colleagues, but friends. 
Congressman Jeff Duncan from the great state of South 
Carolina--and I would like to say our hearts and prayers are 
with you and your state mourning the loss in this tragic event 
that just happened. But I want to thank Congressman Jeff Duncan 
for being here.
    And my good friend Congressman Doug Collins of Georgia was 
willing to come up today. Some of this happened actually in his 
particular district as he represents much of the mountainous 
area of northeast Georgia I guess officially.
    So, without objection, they are welcome to fully 
participate in today's hearing. I recognize Congressman Duncan 
for an opening statement.
    Mr.  Duncan.  Well, I thank Congressman Meadows for 
inviting me to participate. Just since I learned about 
Operation Something Bruin, there are a number of questions that 
I hope to get answered by participating today both from panel 
one and panel two.
    I sit on the Natural Resource Committee, I also sit on 
Homeland Security and Foreign Affairs. Lacey Act issues and 
Natural Resources, Forest Service and U.S. Fish and Wildlife 
Service jurisdiction falls under Natural Resources, so I am 
very interested in this. I appreciate the Congressman also 
recognizing South Carolina at this very difficult time for our 
state with the tragic loss of life, and I would ask everyone to 
please continue to lift my state, the City of Charleston, and 
the folks at Emanuel AME Church in your prayers.
    And with that, I yield back.
    Mr.  Meadows.  Thank you. The Chair recognizes the 
gentleman from Georgia, Mr. Collins.
    Mr.  Collins.  Well, thank you, Mr. Chairman. I appreciate 
that, and it is a pleasure to be up here across border. We 
share this border and I think it is one of the reasons people 
when they come here, they stay here, because this is great for 
North Carolina and Georgia, as we have a great part. And of 
course, my friend from South Carolina, we share another border. 
So we have got this area pretty well covered and again, the 
prayers of many go to South Carolina during this time.
    Mr.  Meadows.  It is God's country.
    Mr.  Collins.  There you go, amen.
    I just want to say thank you for the hearing and also today 
we are going to be hearing from a couple of folks from my part 
of the world, my constituents, Mr. Stockton, Mr. Adams as well. 
And I am pleased to be a part of this also, from what we have 
seen so far and from my personal experience with the Georgia 
DNR has been excellent, it always has been from my time in the 
state legislature and I think we will see that again today.
    But I think there are a lot of questions that, you know, it 
does deserve a hearing and what you said, Mr. Chairman, was 
dead on, being outside the beltway, letting people see not only 
what we do, but also letting you know that the government--this 
is the checks and balances that we have, this is the 
Congressional oversight. This is exactly what we are supposed 
to be doing.
    And serving on Judiciary Committee and the Rules Committee 
and also being on OGR with you for a couple of years as well, 
it reminds us that is the part that I believe frankly has been 
forgotten in Congress many times, is that one of our main roles 
is oversight of how our tax dollars are spent and how our 
government operates. So I am looking for to the testimony and 
the questions.
    With that, Mr. Chairman, I yield back.
    Mr.  Meadows.  I thank you.
    I will hold the record open for five legislative days for 
any member who would like to submit a written statement further 
than where we are right now.
    We will recognize the first panel of witnesses. I am 
pleased to welcome several attorneys who have all represented 
Operation Something Bruin defendants. Mr. Russell McLean, Mr. 
Allyn Stockton and Mr. Stiles is not joining us today, but I 
would also like to welcome Mr. Charles Anthony Smith. Mr. Smith 
was acquitted of charges relating to Operation Something Bruin.
    We thank each of you for being here with us today and look 
forward to your testimony. We welcome all of you.
    Pursuant to committee rules, witnesses will be sworn in 
before they testify, do I would ask you to please rise and 
raise your right hand.
    [Witnesses sworn.]
    Mr.  Meadows.  Please take your seat. Let the record 
reflect that all witnesses answered in the affirmative.
    In order to allow time for discussion, we would ask that 
you would try to limit your testimony, your oral testimony, to 
five minutes. But your entire written statement will be made 
part of the record.
    So we will go to our first witness, Mr. McLean, if you will 
give us your opening statement.

                       WITNESS STATEMENTS

                  STATEMENT OF RUSSELL McLEAN

    Mr.  McLean.  Thank you for this opportunity to speak 
today.
    Two hundred and thirty plus years ago, the American 
colonies secured their independence from the yoke of tyranny 
from the British Crown. The colonies set up a Constitutional 
Convention to create a document establishing our experience in 
a free constitutional government. Mr. James Madison was 
appointed to draft that document. Madison sent a copy of that 
document to Thomas Jefferson who stated that we must have a 
Bill of Rights attached, which would establish our inalienable 
rights as given to us by our Creator, to be free from 
government interference. Madison responded to Jefferson stating 
that the Constitution is such a limiting document that it would 
not be necessary to have that Bill of Rights.
    On March the 19th of 1787, Jefferson wrote back to Madison 
saying that the reasons we have to have a Bill of Rights is not 
to protect Americans from the abuses of legislative action, but 
to protect our citizens from the abuses of judicial discretion.
    After the Constitution was adopted along with the Bill of 
Rights, Madison thanked Jefferson for his insistence on 
adopting that Bill of Rights.
    Two hundred years later, the United States Supreme Court 
has determined that the plain language of Article III, Section 
2 of the Constitution and the Sixth Amendment of the Bill of 
Rights does not provide a defendant with the right to a jury 
trial if the criminal charges only imprisons a person for six 
months or a fine of $5000. The Court further held that that was 
not a substantial deprivation of freedom or property.
    In 1996, the Supreme Court further held that multiple six 
months' charges would not entitle a person to a right to a 
trial by jury. The Court was wrong. And only Congress can 
correct this abuse of judicial discretion. No man should be 
imprisoned, not even for a day, unless he is convicted by a 
jury of his peers.
    When the federal courts can impose multiple petty offenses 
exposing persons to months or even years of imprisonment, we 
must act to preserve the integrity of the judicial system so 
that citizens once again will expect to be treated not with 
tyranny, but with the grand experiment that our founding 
fathers envisioned.
    Another area of great concern to Congress should be the 
abuse of executive authority given to the federal and state 
agencies to conduct illegal covert operations with impunity. 
Operation Something Bruin is a prime example. Some of our 
federal courts have recognized this abuse of power and Judge 
Sanborn said, and I quote, ``The first duty of an officer of 
the law is to prevent, not to punish crime for the sole purpose 
of prosecuting it.'' In the present case, the chief endeavor 
was to cause and create crime in order to punish it, and this 
is unconscionable and contrary to public policy. When the 
criminal design originates in the mind of government officials, 
the government is estopped from sound public policy from 
prosecution. Our Supreme Court in 1958 held that public 
confidence in the fair and honorable administration of justice 
is the transcending value at stake. And the court further held 
that in the area of impermissible police conduct, the 
protection of our functions and the preservation of the purity 
of its own temple belong only to the court and it is the 
province of that court to protect itself and the government 
from such prostitution of criminal law.
    In recent years, our district courts have held that the 
function of law enforcement is the prevention of crime and the 
apprehension of criminals. Manifestly that function does not 
include the manufacturing of crimes. The courts have held that 
it is not the role of the judicial branch to rubber stamp 
whatever imaginative devices agencies dream up. It is the duty 
of the courts to declare all acts contrary to the manifest 
tenor of the Constitution void. Without this, all of the 
reservations of the particular rights and privileges amount to 
nothing. And that is quoting Alexander Hamilton in the 
Federalist Papers at page 78.
    These reverse sting operations transcends the bounds of due 
process and makes the government the oppressor of the people. A 
review of these cooperative agreements in this case you will be 
presented with and have been presented with show that it was 
not until after the investigation of these men that these 
documents were ever even signed. The operation was conducted 
for four years without a specific inter-agency agreement 
between the federal and state agencies and there is nothing in 
these agreements that authorize or allow the federal or state 
agencies to engage in the multitude of crimes that these 
undercover officers committed.
    Thank you.
    [Applause.]
    Mr.  Meadows.  Thank you, Mr. McLean.
    I would ask--you know, as much as you may agree, I am going 
to need to ask you to silently shake your head instead of doing 
applause because this is--it would not be condoned in D.C. and 
I cannot condone it in Haywood. And so, if you would do that. 
You can just kind of do the nod. All right? And I will make 
sure that we recognize that.
    Mr. Stockton, you are recognized for five minutes.
    [Prepared statement of Mr. McLean follows:]
    [GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 
    
                   STATEMENT OF ALLYN STOCKTON

    Mr.  Stockton.  Congressman Meadows, thank you so much. I 
can remember--I cannot remember what small town it was, I do 
not know if it was Bryson City or Robbinsville or whatever when 
I first met you, but you have talked straight to us ever since 
then. You said, ``I am going to do this'' and I did not really 
believe you to begin with, but you followed up on what you said 
you would do and I appreciate it. You were also very candid 
with us, you said, ``Look, I know all these folks are not lily 
white.'' You told some personal examples and everything and you 
were exactly right.
    This is not a situation where you have a mass of innocent 
lily white people that were falsely accused of stuff. What 
Operation Something Bruin is in a nutshell though is probably 
the largest mass misdemeanor operation in the history of law 
enforcement. I have never seen so much invested in a crime 
which our society and our laws holds at the lower end of the 
spectrum.
    This was a situation where--and just to give some 
background, I have a client right now on death row. I have had 
clients tried in the federal courts for major drug trafficking 
operations. I have never seen the amount of law enforcement 
effort expended on any of these cases that I have seen on 
Operation Something Bruin. And my experience with Operation 
Something Bruin involved three clients. One of them was 
absolutely innocent. She is a mid-40s accountant. She happened 
to be dating a person who was a target of the investigation in 
Georgia, although that person--he is here today, Edsel Brent 
Thomas, his part of the investigation had nothing to do with 
North Carolina, had nothing to do really with bears. And 
basically what it involved--and I will also say, it is in my 
statement--he has one arm--it involved him riding around with 
two undercover agents, one of which was a North Carolina law 
officer, undercover wildlife officer, the other was a Forest 
Service officer for North Carolina. Riding around at night 
shooting deer with a spotlight. My understanding is five were 
taken, only one by Mr. Thomas, the others were taken by the 
undercover officers. Keep in mind, Mr. Thomas has one arm, it 
is impossible for him to both hold the light and shoot a deer 
at the same time.
    That said, you brought up Operation Smoky. That was a 
legitimate, apparently, operation. I remember that, I was a 
much younger person. There was apparently trafficking in bear 
parts and so forth. Fortunately, with the advent of Cialis and 
Viagra, we do not have the market for bear gall bladders any 
more. That is no longer something that can be marketed or is 
marketed. But nevertheless, that is something that was used as 
the impetus for this operation. If you look at all the 
different press releases and the justification behind this, it 
was we need to stop this organized commercial bear hunting and 
selling of bear parts and so forth.
    And respectfully, that is not what Operation Something 
Bruin showed. Operation Something Bruin--basically what it 
showed was the investigation wound up exceeding its authority 
and its mission. There were no--not one instance I am aware of, 
of any bear part or animal part being sold or even discussed. 
There were no felony convictions whatsoever arising out of this 
and there was no evidence of organized poaching. Clearly there 
were some misdemeanors committed in this. Most of them, I would 
submit were instigated by law enforcement. Not just instigated 
but actually committed by law enforcement, and the people that 
were with them got painted with the same brush as the officer 
committing the crime should have been painted with. One in 
particular who is here today, Chad Crisp, was not even a target 
of Operation Something Bruin when they conceptualized it. They 
came up with him when they went to a convenience store and said 
we want to go bear hunting, who is somebody we could talk to.
    So respectfully--I have said this before--it was more of a 
solution in search of a problem. There was not the problem with 
the bear poaching that was portrayed when Operation Something 
Bruin came about. And I echo Congressman Collins' statements 
about the Georgia DNR. In my limited dealings with this, the 
Georgia DNR were not the problem. Of course, that is just my 
limited dealings with this. Most of what I saw were at the 
federal and the North Carolina state level. But those were my 
cases though. I am sure there were problem with Georgia DNR 
maybe on some of the other cases, but not in mine.
    As Mr. McLean said--and I will end with this--probably if 
anything can come out of this, I would hope that maybe at one 
point in time, someone like Chad Crisp, who is facing a 20-
month sentence, will be entitled to a jury trial for that. He 
was not allowed a jury trial and his case was at the federal 
district level and was removed--after he was acquitted on the 
first felony charges, they removed it, put it in the federal 
magistrate court because they knew he would not get a jury 
trial and they knew he would get loaded up on time. If anything 
could happen, I would like to see something be addressed so we 
have that right.
    Thank you.
    Mr.  Meadows.  Thank you, Mr. Stockton.
    Mr. Smith, you are recognized for five minutes.
    [Prepared statement of Mr. Stockton follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
          
               STATEMENT OF CHARLES ANTHONY SMITH

    Mr.  Smith.  Thank you, Honorable Committee.
    I am Charles Anthony Smith, one of ten people in Haywood 
County charged in Operation Something Bruin. I was charged with 
17 misdemeanor violations.
    In September 2013, I was tried in a special session of 
district court. After two days of hearings, charges were 
dismissed due to insufficient evidence.
    In other cases, charges against three other people were 
dismissed due to not having proof beyond a reasonable doubt. 
And in June, charges against three other men were also 
dismissed.
    During my hearing, evidence presented was a recorded phone 
call with North Carolina Officer Chad Arnold, who posed as Chad 
Ryan. The call was about running his dogs on private property 
in the Silver's Cove fox pen. There was no conversation 
whatsoever which involve bears. During my hearing, Officer 
Arnold testified he never saw me at Silver's Cove, nor did he 
know of my whereabouts or even if I was in the country on the 
days he was running his dogs. Yet while he released his dogs, 
he charged me with the violations.
    I learned that I was involved in an investigation on 
February the 20th, 2013. There was a knock at the door. I 
answered the door and about 15 officers shouted ``search 
warrant.'' They grabbed me by my arms and pulled me out of the 
house. Then the officers pushed past me entering the house with 
assault rifles wearing bulletproof vests. One officer had a 
handful of papers but he did not take the time to show them to 
me. I was terrified because I was at home with my nine-year-old 
daughter. I told them that she was inside and asked them to let 
her come outside to be with me because she would be very 
frightened. My thoughts were that she might get up and run or 
she could be harmed or even shot. I repeatedly pled to be with 
my daughter and every repeated request was ignored.
    While the officers searched and held me, I asked them if I 
was under arrest and they replied ``no.'' The officers kept 
pushing me into the driveway towards their vehicle and I was 
placed inside one in question. I would not answer their 
questions, but I did ask them to bring my daughter out to be 
with me.
    One officer was Jeannie Davis, special agent, U.S. Forest 
Service. She asked if there was anyone I wanted to tell on and 
when I did not, she placed me in handcuffs and arrested me.
    My neighbor picked up my daughter. When I talked to my 
neighbor later, she said my daughter was sitting on the couch 
with several officers in the room, some sitting on the couch. 
My daughter told me they asked her questions and that she was 
very scared.
    During the time I was in jail, my wife told me she and my 
oldest daughter went to the residence to find out what was 
going on. They found on the property a swarm of multiple 
officers and 10 to 15 vehicles in the driveway. They approached 
the residence and were told that I had been taken to jail and 
to wait to talk to the officer in charge. The doors were open, 
officers were in and out, property was being placed in brown 
paper bags and removed. The officer never came, so they did 
enter the house. The officer told them to log into their 
computers, demanding passwords. They were told to stay with the 
officers and when the officers asked questions, they were told 
that their answers would be assumed by these officers.
    They observed officers photographing documents, which were 
confidential. When search teams left, they did provide a copy 
of a search warrant and a copy of items seized. We determined 
items seized that were not listed in the affidavit to be 
seized. They did not leave a list of damaged or broken items or 
a list of documents photographed.
    There are many things that seems and feels to be against 
our rights as citizens and private property owners. The search, 
the arrest, and the charges seem to be very wrongly handled. 
The officers themselves reported I was not violent, yet they 
stormed the house like a SWAT team.
    So far, as a result of Operation Something Bruin, I have 
learned several things. I have learned by North Carolina 
Officer Chad Arnold's testimony under oath in a court of law 
that wildlife officers can kill bears illegally, can kill bears 
that are under weight, can buy chocolate waste and put it in an 
individual's yard, can drink alcohol in the capacity of doing 
their job, can dig ginseng on the national park, and commit 
other wildlife crimes and violations and charge other 
individuals for the crimes that they themselves have committed.
    I have also found that officers can join in with other 
agencies and conduct investigations on hunters across state 
lines before entering an inter-agency agreement. Officers can 
break laws while alone and then show up with dead bears and 
charge hunters with these violations. They can secure search 
warrants for property where no known crimes have been 
committed. It appeared by Arnold's testimony that the bear 
poaching exists within those agencies.
    While the misdemeanor charges against me were dismissed by 
the judge, the trauma to my family, invasion of my home, our 
lost feeling of security, the damage to our names and 
reputation by things published in the paper, on TV, and on 
their websites, these things should not be dismissed.
    Steps should be taken to protect others from events such as 
this. Because of this experience, I am asking the individuals 
who have the authority and the power to please go on our behalf 
and stand in the gap to protect our families and others from 
officers' actions such as these.
    Thank you.
    [Prepared statement of Mr. Smith follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
       
    Mr.  Meadows.  Thank you, Mr. Smith, for that compelling 
testimony.
    The Chair is going to recognize the gentleman from South 
Carolina for a series of questions and then we'll go to the 
gentleman from Georgia and then I'll follow up.
    The gentleman from South Carolina is recognized.
    Mr.  Duncan.  I thank the Chairman. And thank you for your 
testimony.
    I noticed in some of the documentation that one of the 
defendants pled guilty to six offenses and received for that 
guilty plea 20 months in prison since the prison sentences were 
added consecutively. Now this was in federal magistrate court. 
I guess the question I would have is--and I look at what he 
pled guilty to: knowingly operating a vessel on the waters of 
the state of North Carolina between sunset and sunrise without 
use of navigational lights; knowingly and intentionally hunting 
bear at night and during closed season; knowingly and 
intentionally hunting deer at night; knowingly and 
intentionally hunting deer with aid of artificial light; 
knowingly and intentionally hunting without a license; 
knowingly and intentionally hunting deer with a firearm during 
closed season. Those look like state game law offenses, not 
federal offenses.
    So he was tried in federal court and given a pretty stiff 
sentence because they were added together to run consecutively, 
not concurrently.
    The question I have is, do you think, Mr. McLean and Mr. 
Stockton, being attorneys--do you think that that would have 
been the sentencing had it been--had he been convicted, pled 
guilty in state court, jury trial or not?
    Mr.  McLean.  I know it would not have been, plus we would 
have had an opportunity to have a jury trial in North Carolina. 
That's the critical key.
    Mr.  Duncan.  But set that aside, I agree with you on that.
    Mr.  McLean.  Setting that aside, he would have gotten a 
probationary sentence, paid a fine of about $2000 and gone to 
the house. And let me tell you something, he was facing 34 
charges, so he was facing almost 18 years in prison. I guess 
you would say the Pope shot the bear if he wanted him to to 
keep from having to do that much time. People sometimes plead 
to stuff they did not do in order to keep from having a harsher 
sentence imposed on them.
    That man--I did not represent him but he was facing 34 
counts.
    Mr.  Duncan.  Mr. Stockton, do you agree with----
    Mr.  Stockton.  Yes. And this particular person, his 
charges were moved from----
    Mr.  Duncan.  Pull that mic just a little closer because 
folks in the room need to hear too.
    Mr.  Stockton.  His case was moved from federal district 
court where he had just been cleared on felony charges in front 
of a jury trial. And instead of trying the rest of them to a 
jury, they moved them to a judge who has treated us with the 
utmost respect and been very decent and has not been able to 
find anybody not guilty that I am aware of. But they moved 
those charges to his court and he has a propensity for giving 
jail time. And that is basically the deal they worked out. And 
it is just--he made the best of a very bad situation.
    Mr.  Duncan.  I am not familiar with this individual. Let 
me ask you this, were these charges, crimes that he committed, 
were they committed on federal land?
    Mr.  McLean.  Some were, some were not.
    Mr.  Duncan.  The ones of the gentleman that pled guilty, 
they were on federal land?
    Mr.  McLean.  Three of the charges occurred on one hunt. In 
other words, he went hunting one night with the wildlife 
undercover agent and they broke it down to whatever happened to 
be in the woods, they charged him with. You know, if there was 
a bear, if there was a deer. They did not even see anything, 
but they charged him with each violation even though he did not 
shoot a thing and just happened to be there on one night. And 
that got him 15 months.
    Mr.  Duncan.  This individual that we are talking about?
    Mr.  McLean.  Yes, sir, one occurrence got him 15 months in 
prison, one hunt got him 15 months.
    Mr.  Duncan.  Mr. Chairman, emails provided the committee 
appear to indicate that the magistrate judge in this western 
district court received a directive from the chief judge that 
individuals sentenced for petty offenses are not to receive 
probation.
    Mr.  McLean.  That came from the U.S. Attorney.
    Mr.  Duncan.  Wow. That is amazing.
    I am going to have some other questions. I want to yield 
back and hopefully have a second round.
    Mr.  Meadows.  The gentleman from Georgia, Mr. Collins, is 
recognized.
    Mr.  Collins.  Thank you, Mr. Chairman.
    I think, following up, and Mr. Stockton, I want to go 
through some of your testimony here because there are some 
interesting point that are concerning.
    It was just pointed out, I think--I serve on the Judiciary 
Committee, so this falls in line on the other side in the 
consecutive sentence. I have already contacted my office in 
D.C. about it and we are actually--because there are some 
criminal justice issues coming up and we will talk about this.
    Let's go backwards for a second. Mr. Stancil had charges 
pending in Rabun County. That would be with the D.A. Rickman 
down there.
    Mr.  Stockton.  Correct.
    Mr.  Collins.  Okay. Those were dropped because of the 
prosecution on the federal level; correct?
    Mr.  Stockton.  He had warrants taken out on him. He has 
never actually been arraigned on those charges, Mr. Walt 
Stancil. Mr. Cale Stancil wound up pleading to two misdemeanor 
charges in order to get the felony federal stuff dropped.
    Mr.  Collins.  And Mr. Rickman handled those cases; 
correct?
    Mr.  Stockton.  That is--his office did.
    Mr.  Collins.  I understand. I have worked with him a great 
deal.
    Now it is true--and I am asking this--Walter Stancil was 
found guilty by U.S. District Court for violating Lacey Act. 
Now did you represent him in that case?
    Mr.  Stockton.  I did represent him on that, but I think--
respectfully, I think the way to put that is he was found not 
guilty of committing a felony Lacey Act violation.
    Mr.  Collins.  Okay.
    Mr.  Stockton.  He was found guilty of what we told them we 
were guilty of. He allowed--he had a bear bait that he had 
legally maintained for years for training purposes. In north 
Georgia, we have a training season that comes in three times a 
year.
    Mr.  Collins.  Right.
    Mr.  Stockton.  And the Georgia--there were two Georgia DNR 
officers who testified at his case and I would submit, as far 
as I knew, everything they said was very credible and truthful 
and one of them, I think it was Jesse Cook, he basically 
confirmed that what Mr. Stancil was doing as far as maintaining 
those bear baits for training purposes was legal.
    Mr. Stancil broke the law though when he allowed Chad 
Arnold to go up there and hunt one of them. And respectfully, 
that was the first time that had happened and had he known the 
full situation, that Chad Arnold had killed a cub a few days 
before, that would not have happened then. But we told the jury 
to begin with, that is what he did, and that is what he did in 
Georgia and that is what he is guilty of.
    Mr.  Collins.  And I think that is interesting because some 
documentation we were provided by agencies actually did not go 
into that kind of detail and actually just said he was guilty 
of this by jury trial. So I wanted to focus that.
    Let's go back to that for just a second though. The issue 
of this camera, there is another issue out there. Let's go back 
to that one because I think that one is--this one disturbs me. 
Okay? Private property, a camera is placed. Was there ever a 
warrant or anything ever produced for that?
    Mr.  Stockton.  No. And more importantly it is private 
property that the U.S. Forest Service law enforcement placed in 
a relatively large piece of private property up near between 
Scaly and Highlands.
    Mr.  Collins.  I know exactly where you are talking about.
    Mr.  Stockton.  And it was placed in the middle. And I 
included in my statement basically what I had, the statement of 
facts from the appeal so it kind of reads legally. I kind of 
cut and pasted that.
    Mr.  Collins.  I am used to that.
    Mr.  Stockton.  But anyway, that situation is bothersome 
because he was convicted. And Walt Stancil just had his 49th 
anniversary last week, his son is an ordained Baptist minister, 
he has had one speeding ticket in Louisiana, so I do not even 
know if that counts. But that is the only thing he has ever 
done in his life that was contrary--that he has been convicted 
of or whatever. But he finds a camera, a surveillance camera, a 
game camera. It is not attached to a tree, it is laying on the 
ground. It has got--I think the evidence was there might have 
been a stick or something over it.
    Mr.  Collins.  Let me just interrupt you for a minute 
because I think this is important. I am going to ask these 
questions of the second panel coming as well because this is a 
question on why this got there. Number one, it is trespassing; 
number two, there is another issue here. But it said--and I am 
believe this is part of your cut and paste from the actual 
testimony, Officer Southard testified that he had placed one of 
his business cards inside the surveillance camera. I think this 
is an important point.
    Mr.  Stockton.  Yes.
    Mr.  Collins.  Said he placed it inside the surveillance 
camera but yet Officer Southard later agreed that Walter never 
opened or disarmed or turned off the camera until after he left 
Jack Billingsley's home.
    Again, if you walk up on this in your yard--I'm from 
north--I am born and raised in north Georgia, you come on my 
yard without reason, my daddy is a state trooper in the state 
of Georgia, we will get that out of the way real quickly. I 
fought the law, the law won all my growing up years. Okay?
    [Laughter.]
    Mr.  Collins.  Some of you will get that on the way home 
today.
    I get that. But this--we want to investigate this further 
but basically there is no marking, at least what is shown, and 
contradictory testimony. I have also looked through the inter-
agency agreements, I am not sure where they would find this or 
whether--again, above all the other stuff, undercover 
investigative work is a needed, valuable tool of all agencies. 
But this one gets at the heart of what I think a lot of people 
in this room are very concerned about, and that is where does 
that line get blurred when you go on private property off a 
road, you know, and really have no ID. Even if you put a big 
red, white, and blue sign that says this is the federal 
government, I want to know why you are there to start with, or 
a court had better have allowed you there. And I think that is 
the problem.
    Mr. Chairman, I yield back.
    Mr.  Meadows.  I thank the gentleman.
    Mr. Smith, I am going to follow up with you. Am I 
understanding your testimony correctly that you got a phone 
call----
    Mr.  Smith.  Yes, sir.
    Mr.  Meadows.  --and someone asked you if they could run 
dogs in an area that it is legal to run dogs to train for fox 
hunting or whatever and you said it is okay to go there. Is 
that correct?
    Mr.  Smith.  Yes, sir. This Silver's Cove fox pen has been 
a fox pen for probably 50 some years as far as I know. Probably 
way longer and older than I am, there has been dogs up there. 
This is not a place where they do any killing, it is a for-
sport dog exercising facility only.
    Mr.  Meadows.  So when the officer asked you if they could 
do that, I mean was he inferring that he was going to do 
something illegal or hunt or anything like that, Mr. Smith?
    Mr.  Smith.  No, sir. He just asked for a date that he 
could run his dogs. There was a little cabin up there that had 
a calendar on it. I didn't own or lease the land but there was 
a little calendar up there that people just write their names 
down on when they wanted to come and run. And it was----
    Mr.  Meadows.  So tell me a little bit more, there were--
how many agents showed up at your door?
    Mr.  Smith.  Oh, at my place on Medford Cove, probably 20 
to 25 agents from five different agencies.
    Mr.  Meadows.  And your greatest crime is that you gave 
advice on a telephone call?
    Mr.  Smith.  Yes. I do not even see how he was able to get 
a search warrant. He did not in Haywood County, he had to go 
out of county to even get one. And I do not see how he even got 
a search warrant just based on a phone call. That is concerning 
to me.
    Mr.  Meadows.  So let me ask you the other part, because 
what really concerns me is when you talked about your nine-
year-old daughter.
    Mr.  Smith.  Yes, sir.
    Mr.  Meadows.  I start to put myself and think about my 
kids when they were nine and ten.
    And so they took you outside.
    Mr.  Smith.  Yes, sir.
    Mr.  Meadows.  And you kept asking well, just let my 
daughter come out.
    Mr.  Smith.  Yes, sir.
    Mr.  Meadows.  And their response was no?
    Mr.  Smith.  They never did acknowledge me asking for my 
daughter.
    Mr.  Meadows.  So they ignored.
    Mr.  Smith.  Yes, sir.
    Mr.  Meadows.  But they do not refute that you asked for 
your daughter to come out. When you had this, they did not say 
that----
    Mr.  Smith.  They never brought it up in court.
    Mr.  Meadows.  Okay. Did you bring it up or did your 
attorneys bring it up in court?
    Mr.  Smith.  I think Mr. McLean did.
    Mr.  Meadows.  Mr. McLean, did you bring that up in court?
    Mr.  McLean.  I brought up a lot of things on top of that; 
yes, sir, I did.
    Mr.  Meadows.  Okay, all right.
    So Mr. Smith, when we see this, do you believe that the 
type of, what I would refer to as SWAT team kind of swooping 
down, do you think that that was disproportional to the crime 
that you were even charged of?
    Mr.  Smith.  Yes, sir.
    Mr.  Meadows.  All right. So what kind of lasting effect 
has it had on your family? You mentioned that a little bit in 
your testimony. What kind of lasting effect has it had?
    Mr.  Smith.  It has hurt our reputation of our name in the 
community.
    Mr.  Meadows.  Because they think you are guilty because 
you were charged.
    Mr.  Smith.  True. And just all the media sensation that 
they had over everything, it was just totally uncalled for. And 
the conduct of the officers at my house was outrageous.
    Mr.  Meadows.  Outrageous in what sense? I mean obviously 
there was a number of them. We want to make sure our law 
enforcement officers are safe.
    Mr.  Smith.  All it would have took, if they would have 
needed me to turn myself in, it would have took a phone call 
and I would have gladly brought myself right up here to the 
courthouse, to the jail. It would not have took 25 officers to 
come to my house with bulletproof vests and assault rifles to 
get me to turn myself in or for them to apprehend me. It would 
have took one phone call, I would have been up here as quickly 
as I could have done something my daughter and got her safely 
somewhere.
    Mr.  Meadows.  Mr. McLean, let me come to you since you 
talked about these charges. You know, I think it was mentioned 
there were three different charges--hunting a bear, a deer and 
a hog with a spotlight, but it was one time.
    Mr.  McLean.  December the 3rd, one time.
    Mr.  Meadows.  All right. So did they have different kinds 
of shells for the gun that particular night? Maybe in D.C., 
they do not understand that perhaps you use a different shell 
to hunt different kinds of animal. I mean obviously you could 
possibly find one that would work for all three.
    Mr.  McLean.  They had one gun.
    Mr.  Meadows.  But you do not normally go out hunting for 
all three of those.
    Mr.  McLean.  The undercover agent had one gun.
    Mr.  Meadows.  All right. So the undercover agent had a 
gun?
    Mr.  McLean.  Yes, sir.
    Mr.  Meadows.  Did the person you----
    Mr.  McLean.  No.
    Mr.  Meadows.  So your person did not have a gun?
    Mr.  McLean.  No. But he went with them.
    Mr.  Meadows.  But he had a spotlight and went with them.
    Mr.  McLean.  Had a flashlight; yes, sir.
    Mr.  Meadows.  Had a flashlight?
    Mr.  McLean.  Yeah.
    Mr.  Meadows.  A flashlight?
    Mr.  McLean.  You know, one of them big lights.
    Mr.  Meadows.  Oh, so it was a big flashlight.
    Mr.  McLean.  Pretty good size flashlight.
    Mr.  Meadows.  All right. So here he was out there, but he 
went out and so he got charged with three----
    Mr.  McLean.  Whatever they could think of was in the woods 
that night, they charged him and he ended up getting 15 months. 
They did not see anything.
    Mr.  Meadows.  Well, they did not charge him with grouse 
hunting at night.
    Mr.  McLean.  No, but if there was--I do not think there 
are any grouse out there any more.
    Mr.  Meadows.  Oh, maybe that is what it was. All right. So 
if we are doing that, you mentioned how many charges were made 
against him?
    Mr.  McLean.  He had 34 charges. And I want to say this 
about that, if you do not care. One of your U.S. Forest Service 
officers specifically told Mr. Stiles--and I wish he was here 
because he is the one that came down and related it to us--he 
said look, you may win in district court in front of a jury but 
we are going to take you in front of a magistrate and you will 
get time. And that is what Eric Stiles would have told you if 
he had been here.
    So he was facing that going in. And that man knew that he 
had 34 charges and that was, in my opinion, almost 18 years in 
prison. And so he opted to do what he had to do to keep from 
getting as much time as they wanted him to get.
    Mr.  Meadows.  So 34 charges and if you added the maximum 
sentence for each----
    Mr.  McLean.  Six months a charge.
    Mr.  Meadows.  So that would be how many years?
    Mr.  McLean.  Well, I am not good at math, but take six and 
divide it into 34 and that will give you--it would be half of 
that
    Mr.  Meadows.  Seventeen years.
    Mr.  McLean.  Seventeen years. I became a lawyer, not a 
mathematician.
    Mr.  Meadows.  Well, sometimes being a lawyer is better 
than being a mathematician.
    I am going to recognize the gentleman from South Carolina 
for a second round of questions.
    Mr.  Duncan.  Thank you, Mr. Chairman.
    I want to go back to something that Congressman Collins 
mentioned and that is federal officers coming onto private 
land. Now I realize that in South Carolina, game wardens 
working for the wildlife department can enter private land even 
without the necessity of showing probable cause without a 
warrant if they are trying to enforce game laws. If they are 
coming to see if you are baiting deer, turkey. You know, if you 
have made it a water fowl hole and all that, they can come on 
private land. I get that.
    I am real fuzzy on whether a federal officer can enter 
private land without a warrant, because my gut and my 
understanding of Constitutional law says no.
    Mr.  Collins.  That is right.
    Mr.  Duncan.  So I would like some clarification there. Was 
a warrant issued? Was there, due to the joint jurisdictional 
operation, was there an agreement? And the other question I 
have is probably for the second panel, is when I was a 
legislator in South Carolina, we were approached by U.S. Forest 
Service law enforcement officers to give them the ability to 
handle Title 51, which was our criminal code in South Carolina, 
offenses. So if they saw someone breaking a South Carolina law 
on U.S. Forest Service property, they had the ability to 
enforce South Carolina law on federal Forest Service property, 
federal land.
    But I do not remember anything we did in the state giving 
those federal officers the ability to enforce either South 
Carolina law or federal law on private property, non-federal 
land, without going through the normal warrant process.
    So that is just a question I throw out there because I am 
real concerned about what Representative Collins said.
    Mr.  McLean.  The particular officers you will be talking 
to shortly will tell you that they had an agreement signed in 
2006, what is called an inter-agency agreement. But all that 
basically did was deal with federal wildlife violations, such 
as the Lacey Act. It did not provide that they had the right to 
go enforce South Carolina laws on private South Carolina or 
Georgia property. And it required, in the 2006 agreement, that 
they had to have a specific inter-agency agreement before they 
could even get involved in those types of activities if they 
wanted to go undercover, covert operations. So that was the 
premise that they tried to claim that they had the authority.
    Then when I asked for the written authority, they signed it 
a week and a half after they started charging all these guys 
and picking everybody up. All of a sudden it came up and it was 
signed by all of the agencies.
    South Carolina actually did participate in some of these 
activities, but they realized what was going on, I think, and 
they dropped out of this. Georgia stayed in and so did Kentucky 
and some other agencies, but South Carolina came out.
    Mr.  Duncan.  Just for clarification purposes, going back 
to what Representative Collins was asking, did a Georgia 
wildlife officer or a North Carolina wildlife officer accompany 
the federal officers as they entered private land?
    Mr.  McLean.  No.
    Mr.  Stockton.  Well, with Mr. Stancil's situation on the 
private land, there was on occasions state officers, North 
Carolina state officers that entered with him. It is clear in 
the statements and everything though, Forest Service Officer 
Brian Southard said I made the decision to do this and 
everything.
    In Rabun County, Georgia where I am from, 65 percent of the 
county is owned by the U.S. Forest Service. They have got 
plenty to look after on their own. And it is a similar 
situation in western North Carolina. I do not know why the U.S. 
Forest Service--and this was not just any governmental agent 
that did it, it was a U.S. Forest Service person that strayed 
off of their thousands and thousands of acres to surveil 
something on 50 acres.
    And you are right, in Georgia I think we are pretty much 
the same way about an officer, a conservation officer can enter 
on to check to see what is going on. But I would submit there 
is a difference between checking for compliance and surveiling 
somebody. I would submit they should have had a warrant, they 
should have had permission, they should have had some kind of--
in the situation with the Forest Service ranger, he should have 
had some kind of jurisdiction to go there. Like I say, if he is 
putting that camera on federal lands, that is one thing. But he 
was putting it on private property.
    Mr.  Duncan.  It was strictly investigating on private 
property, it was not an instance of transiting private property 
to get to federal property. This was uniquely----
    Mr.  Stockton.  And I gave you too much information in my 
statement. If you will read it, I spell it out from the time 
you leave the state road until you get to where this was, you 
do not traverse any federal property at all. And keep in mind, 
in his trial, all of the testimony was from the officers, 
everything you see is based on the actual transcript of that 
trial, that I have written there. And the officers themselves 
stated look, it is probably a quarter of a mile from the 
nearest U.S. Forest boundary, you cannot see a U.S. Forest 
Service boundary from where we are at. You do not cross the 
U.S. Forest Service. No, this was a wholly contained private 
piece of property.
    Mr.  Duncan.  Do you think this was an instance--and this 
is just for my edification--of baiting or luring animals off of 
federal property onto private property?
    Mr.  Smith.  They will go where they want to.
    Mr.  Stockton.  That was probably the argument. Keep in 
mind though, there are legal instances of baiting, there are 
legal ways of baiting. This had been surveiled, and candidly 
there were no baiting cases made out of this. The case that was 
made out of it----
    Mr.  Duncan.  I am not familiar with North Carolina and 
Georgia law, you can bait in South Carolina all day. It is the 
hunting over baiting that trips you up. If you are luring 
animals to hunt, and so I can put bait out to view wildlife and 
photography and all kinds of things. It is the hunting aspect, 
taking of game over baiting, where the law kicks in. I 
appreciate that.
    Let me move on in the essence of time. I want to talk about 
the Lacey Act a little bit because during Operation Something 
Bruin, federal Lacey Act violations could apply if a bear or 
wildlife was illegally killed and then transported across state 
lines.
    According to media reports, undercover officers, against 
the advice of hunters, called hunters from surrounding counties 
to try to get them to participate in illegal selling of bear 
parts such as gall bladders. Hunters refused to take part in 
this illegal activities and, according to news reports, no 
charges were filed in Operation Something Bruin related to gall 
bladders. So related to gall bladders, there was no Lacey Act 
violations.
    This seems like a huge federal effort, using the Lacey Act 
as the impetus for that, to prosecute and investigate hunting 
activity in North Carolina and Georgia. And at the time, it was 
developed, South Carolina was brought into it for at least the 
initial discussions and no cases or no investigation was done 
in my state. But they were initially contacted. So it just 
seems like a tremendous effort.
    Mr.  Stockton.  To give some background on the Lacey Act, 
it came around at the turn of the past century, around the 
early 1900s and it was at a time when the birds in the 
Everglades were just being decimated because of women's hats. 
That is basically part of what brought the Lacey Act around. It 
was about fighting the commercialization of animals.
    What has happened now is--and the way the Lacey Act I guess 
applied in our situation is you have got a situation that Mr. 
McLean's client was a licensed hunting guide and they 
considered that selling the animal. In my client's situation, 
he was not part of the commercial operation, the outfitting 
operation at all. He allowed this undercover officer--and there 
is no testimony, no evidence whatsoever that my client ever 
received a dime, but he allowed him to hunt at a place where he 
had been maintaining legal bear baits for training purposes. It 
became illegal the minute he allowed him to go there.
    But the way they bootstrapped him in the Lacey Act is he 
knew or should have known that that bear would eventually cross 
state lines.
    Mr.  Duncan.  Does he have a crystal ball?
    Mr.  Stockton.  That is what it would take.
    Mr.  McLean.  And that is the same, Mr. Duncan, basically 
the game warden, state game warden in North Carolina, went to 
this bait site by himself, nobody else was there. My client was 
not even in the picture. He shot the bear, he then called his 
client to come back and help him load it, took it to my 
client's property in Georgia. They skinned the bear and then he 
brought it back, the wildlife officer brought it back across 
the state lines in order to get the Lacey violation.
    Mr.  Stockton.  The next day.
    Mr.  McLean.  The next day--the next day.
    Mr.  Duncan.  Well, Mr. Chairman, I do not want anything to 
be construed that I am against the Lacey Act. I think the Lacey 
Act has a very immense value in this nation with regard to 
ivory, with regard to a number of other things. I fully support 
that. I do understand the history of the Lacey Act and the 
Migratory Bird Treaty Act and what it did for conservation and 
protecting certain species. But I am concerned about what I am 
reading and hearing about how the Lacey Act was sort of the 
impetus for the whole operation and there were not any 
violations, there was not any evidence that I have been able to 
see that the Lacey Act was, you know, egregiously being 
violated here.
    So I thank the Chairman and thank the witnesses and I will 
yield back.
    Mr.  Stockton.  If I may just real quick, the Lacey Act 
situation, my client was charged in North Carolina, indicted 
for a felony in federal court for a Georgia violation, a 
Georgia misdemeanor violation. And that misdemeanor was the 
predicate for a potential felony conviction. That is the 
situation we had.
    Mr.  Meadows.  The Chair recognizes the gentleman from 
Georgia, Mr. Collins, for a second round.
    Mr.  Collins.  Thank you, Mr. Chairman.
    There is a lot that has been asked here and I think the 
gentleman from South Carolina answered and really raised a lot 
of things. I want to--some of the times at Congressional 
hearings not only on a specific issue, give you a chance to 
make a statement but also clarify and maybe teach even.
    I may not like this, Mr. Stockton and Mr. McLean, we have--
as many times among defense attorneys, we have only always--you 
know, we always represent innocent people. We do not. There are 
many times that people need us because they are not innocent.
    But one of the things that is talked about and it has been 
talked about in this administration. There has been a 
discussion in this country for about eight, nine months now 
about prosecutorial discretion. In fact, our President has said 
that he is acting under prosecutorial discretion by just 
basically saying I am just going to five or six million people 
and say I am just not going to prosecute the law. That is not 
prosecutorial discretion, that is just against the law. Okay?
    But what we are seeing here, and I want to make this clear 
because in fairness to our prosecutors and in fairness to our 
system, the issues here in which I have had cases in which I 
have had multiple charges and it is up to the prosecutor to 
decide really what they want to go forward with, how much they 
want to charge or how less. Would you not both of you agree 
that is prosecutorial discretion?
    Mr.  Stockton.  Yes.
    Mr.  McLean.  Correct.
    Mr.  Collins.  In its purest sense. So really, as much as 
we may or may not like it, they can in some ways choose the 
forum in which they are going to charges these crimes. Correct?
    Mr.  Stockton.  Yes.
    Mr.  Collins.  I think that is the hard part to understand. 
And this petty offense issue I think makes it very difficult 
for people to understand but I think the bigger picture is, and 
I want everybody here to understand this and maybe you are 
going to be watching later, those of us who got really upset 
with this administration for claiming prosecutorial discretion 
in an immigration issue in which they are just blanketly saying 
we are not going to touch this because we have the ability to 
choose, pick and choose which laws we want to enforce. That is 
not what happens a lot of times in these cases which are actual 
prosecutorial discretion. Whether I like it or not frankly is 
irrelevant. They do have that.
    But I do want y'all to expound upon that because you both 
mentioned it in your testimony. I would just like to hear your 
comments on that.
    Mr.  McLean.  And I appreciate the fact that they have 
prosecutorial discretion. My position is even beyond that. If 
you are going to prosecute me, at least give me a right to go 
in front of 12 people who are my peers to try to see if that 
prosecutor can get a conviction, because my client is presumed 
innocent whether he chooses to prosecute him or not. I believe 
that every man who faces any day in jail should have the right 
to have a jury. If we had lost every one of these cases in 
front of the magistrate because they wanted jail time, then we 
would not be sitting here, in my opinion. But they denied 
something that is even far greater than prosecutorial 
discretion. They denied every man in magistrate's court the 
opportunity, because they knew they were going to get time, to 
give us a jury trial to let the jury make that determination.
    Mr.  Collins.  And I think the issue you bring up there--
and let's continue this--it is something, like I said, I have 
already said in my first line of questioning, is this concern 
of, you know, especially consecutive because many times people 
are charged with multiple, because, you know, just the nature 
of the offense, it may be petty but it is multiple and if it is 
done consecutively and not concurrently, it presents an even 
larger issue and I think that is what you are pointing out 
there.
    Mr.  McLean.  And my point is also, I respect one of our 
district court judges by the name of Cogburn. He in the 
district court for the Middle District of North Carolina. Let 
me tell you something, when he was the magistrate in the 1980s, 
when he realized that the government wanted active time, even 
one day, he would require, that prosecutor could bring a jury 
in a magistrate's court and let us try it in front of a jury. 
And that is the thing that I think Congress really needs to 
look at and change.
    Mr.  Collins.  Anything, Mr. Stockton, you want to add to 
that?
    Mr.  Stockton.  Just when you were saying that about 
prosecutorial discretion, it just kind of reminded me of the 
movie ``Cool Hand Luke,'' where he said, ``Look, calling it 
your job don't make it right.'' And that is kind of the 
situation. Just because they are saying look, that is our job, 
that does not make what has gone on here right.
    Like I say, this is not a situation where you have got a 
lot of lily white people, although there are some lily white 
people in this situation. In my statement, I hope y'all will 
pay attention to C.J. Junaluska. He was a victim, he was an 
absolute victim because he was indicted on a felony in federal 
court on a lie, absolute lie. No other way to put that. It was 
ultimately dismissed but only after he had to worry about it 
and I think had to hire a lawyer to do it.
    Cindy Clanton was indicted--I am not going to say it was on 
a lie, but she just did not do what they said she did. She was 
just completely innocent.
    Jack Billingsley, who is here today, he was charged and 
ultimately dismissed. And he was just innocent. Like I say, 
calling it their job to bring those charges did not make it 
right, because they put some people who had not committed 
crimes in a bad situation.
    I represent a lot of hardened criminals, you know, they 
thrive off that kind of rush, that kind of drama but your 
average law-abiding people, even though it is relatively a 
minor misdemeanor maybe in some case, that is a huge issue to 
their life. You know, people's good names mean something to 
them. Walt Stancil, it means something to him that he has got a 
clean record. It means something to him that he can tell his 
grandson that look, I have not been convicted of any crimes or 
whatever.
    And they are making more out of this than what it ever was.
    Mr.  Collins.  And I think the biggest thing here--and 
having respect, and from my background, from the state 
legislature and on and basically family background, we need law 
enforcement and we need good attorneys on the other side as 
well. It is the balance that keeps the system operating and 
when those balances are missed and those balances are off 
kilter, that is when people lose faith in the system on both 
sides. And we need to continue to maintain that.
    And I also want to say, Mr. Smith, Mr. Meadows has done a 
good job asking questions, but I just want to thank y'all for 
your testimony and I appreciate it and yield back.
    Mr.  Meadows.  I thank the gentleman. I am going to go 
ahead and conclude with a round of questions and then we will 
make a very brief adjournment for the second panel.
    But Mr. McLean, I want to come back to you. You had 
indicated earlier that the agreement that basically authorized 
this was not signed until did you say 12 days after some of the 
charges?
    Mr.  McLean.  Just to be on the safe side, let me look, I 
brought it with me.
    Mr.  Meadows.  You actually brought documents with you.
    Mr.  McLean.  I brought the--okay, apparently the U.S. 
Forest Service signed it on February the 23rd and it looks like 
that the State of North Carolina signed it on February the 
28th, 2012.
    Mr.  Meadows.  And this was after----
    Mr.  McLean.  Tony got arrested on February the 19th.
    Mr.  Meadows.  So it was after Mr. Smith was arrested.
    Mr.  McLean.  And all my other clients too.
    Mr.  Meadows.  So are you suggesting that these agencies 
knowingly entered into arresting someone without having the 
proper documentation?
    Mr.  McLean.  I guess the judges will have to deal with 
that.
    Mr.  Meadows.  I am saying are you suggesting.
    Mr.  McLean.  I believe they are. I believe they did not 
have the authority to do what they claim they did.
    Mr.  Meadows.  All right. So one of the things that was 
real troubling to me early on and why it raised I guess my 
sensitivity is I heard a number of different stories that were 
very--they just did not seem like it was America. You know, it 
just seemed like they were going a different direction than 
what our founding fathers.
    One of those had to do with an email that basically said we 
are going to give people jail time instead of probation because 
I guess it was cheaper, is what they said. Now does that make 
sense to any of you on the panel, that it is cheaper to put 
somebody in jail than to give them probation? Under what theory 
is it cheaper to do that? Mr. Stockton.
    Mr.  Stockton.  Well, I think it depends on what you are 
assigning a value to. If you are saying dollars and cents, 
maybe you can do some fancy accounting and come up with it 
being cheaper.
    Mr.  Meadows.  So it is cheaper to feed them and house 
them?
    Mr.  Stockton.  But if you are looking at the cost in 
liberty and justice, then it is definitely not cheaper. That is 
the wrong way to go.
    Mr.  Meadows.  Well, I do want to make mention of Mr. Frank 
Whitney, he is the Chief United States District Judge. Because 
when some of this stuff came up, I made a commitment not only 
to some of you but some of the people in the audience here that 
I would follow up personally. And I will say that I called 
Frank Whitney, the Chief Judge, and made him aware of the 
emails that I had received. It was of great concern to me 
because it appeared as if we were intentionally trying to put 
people in jail instead of actually allowing them to either pay 
a fine or probation. And much to his credit, I guess the day 
after my phone call, he put forth a clarification memo that I 
think now that you have seen.
    Mr.  McLean.  Actually, I have not seen it, but I am aware 
of it.
    Mr.  Meadows.  You have not seen it but you are aware of 
it, that says that we should have all the options. They should 
not be forced into jail.
    So I guess my question is, with this clarification, do you 
think the ambiguous nature that was there prior to that entered 
in in any way as a factor in terms of sentencing for any of 
your clients as they went forward? In any way.
    Mr.  McLean.  I do not think I can speak to that. Just 
truthfully, I do not believe I can.
    Mr.  Meadows.  All right.
    Mr.  McLean.  You would ask me to step into the minds of 
those justices and those judges and I cannot do it.
    Mr.  Meadows.  All right, fair enough.
    Mr.  Stockton.  I have got to say I think that the law 
enforcement officers in this knew where they could get the most 
bang for their buck and they moved from district court to the 
magistrate court because they knew there would not be 
probation.
    Mr.  Meadows.  So what you are suggesting then, Mr. 
Stockton, is that there were charges, felony charges, all these 
other charges, that would allow for a jury trial. And then they 
saw people getting off of a jury trial and they said well, let 
us just do away with all of these that require a jury and let 
us re-charge them with a misdemeanor where hopefully the result 
is a little favorable; is that what you are saying?
    Mr.  Stockton.  I believe in my heart that is exactly what 
the situation is. But I am saying that based on the knowledge I 
have of what Brian Southard had said to Eric Stiles about we 
will just move it down to magistrate court and they will give 
him time. That is why I say that.
    You had asked Mr. McLean earlier if he believed that law 
enforcement had deliberately arrested like Mr. Smith, knowing 
that they did not have the inter-agency agreements. I do not 
want to assign ill motives to anybody without good reason, 
because that is what has been done to us, that is what has been 
done to our clients.
    Mr.  Meadows.  Sure.
    Mr.  Stockton.  I can only assume that that was negligent, 
not intentional. But on this situation, absolutely, they 
moved--and we are talking basically about Chad Crisp's case and 
his father's case. They basically moved those from the district 
court down to magistrate court to load them up.
    Mr.  Meadows.  All right. So let me say, if I were speeding 
on a federal highway, Blue Ridge Parkway, I guess that would be 
a federal misdemeanor.
    Mr.  McLean.  It would be.
    Mr.  Meadows.  So if I was speeding and they caught me 
three times on the Blue Ridge Parkway, could I, under this same 
scenario, go to jail for 18 months?
    Mr.  Stockton.  I am not completely sure if a speeding 
ticket in the federal system----
    Mr.  McLean.  I saw one get five months.
    Mr.  Stockton.  --allows for that.
    Mr.  Meadows.  I could get five months is what you are 
saying? Well, that is encouraging.
    [Laughter.]
    Mr.  Meadows.  All right. I think we get the sense of it. I 
am looking forward to hearing some of the answers from the 
second panel. Obviously I want to thank each of you for your 
time, for your testimony here today.
    We are going to take a short break as we seat the second 
panel of witnesses.
    Mr.  McLean.  We thank you for the privilege of being here. 
Thank you.
    [Recess.]
    Mr.  Meadows.  All right, the Committee will come back to 
order, if we can. If you will please take your seat, and if you 
have to have a conversation, take it outside.
    We will now recognize our second panel of witnesses and I 
am pleased to welcome Mr. Luis Santiago, Special Agent-in-
Charge of the Atlanta Regional Office of the U.S. Fish and 
Wildlife Service; Mr. Tony Tooke, Regional Forester for the 
Southern Region at the U.S. Forest Service. Thank you for being 
here. Mr. Gordon Myers, Executive Director of North Carolina 
Wildlife Resources Commission; and Major Stephen Adams, who is 
with the Law Enforcement Division at the Georgia Department of 
Natural Resources.
    Thank you all, gentlemen, for being here and pursuant to 
committee rules, we will ask that y'all be sworn in. So if you 
would please rise and raise your right hand.
    [Witnesses sworn.]
    Mr.  Meadows.  Thank you. Please be seated. Let the record 
reflect that all witnesses answered in the affirmative.
    Again, in order to allow time for discussion and questions 
as a follow-up, please limit your oral testimony to five 
minutes, but your entire written testimony will be made part of 
the record. And I will say that before we go to questions, we 
will be yielding, after your testimony, to the gentleman from 
Georgia, Mr. Collins, because he is going to have to depart for 
another engagement. But we will first go to you, Mr. Santiago 
and recognize you for five minutes.

                       WITNESS STATEMENTS

                 STATEMENT OF LUIS J. SANTIAGO

    Mr.  Santiago.  Good morning, Chairman, Meadows, 
Representative Collins and Representative Duncan.
    We are here today to talk about our investigation into 
illegal activities involving money, chocolate and greed. 
Poachers and unethical commercial hunting guides in Georgia and 
North Carolina have reaped financial gains using baiting 
stations filled with chocolate waste to attract the American 
black bear for an easy kill during the hunting season.
    It is an unethical practice and the Service is committed to 
doing as much as it can with the resources we have to make the 
illicit take and illegal trade of wildlife such as the black 
bear as short as possible.
    Demand for bear parts such as claws, paws, meat and gall 
bladders on the black market is resulting in the rapid decline 
of Asian bear populations and the American black bear is 
filling the void. Typically, poachers sell bear parts to local 
buyers who in return sell them to buyers in Asian American 
markets. The trafficking of bear gall bladder in particular is 
big business. Used for illegitimate medicinal purposes, the 
price of a bear gall bladder typically starts between $50 to 
$200 and can end up being sold several times at prices 
exceeding $1000 each.
    The continued illegal take of the American black bear to 
meet increased commercial demand for its parts may eventually 
have a negative impact in its population. As such, the bear is 
afforded protection under an international treaty known as 
CITES or the Convention on International Trade in Endangered 
Species. The American black bear is also protected by the 
nation's first federal wildlife protection law, the Lacey Act, 
and state wildlife laws.
    To facilitate this illicit take, poachers use chocolate to 
lure bears and make their capturing them much easier. In this 
investigation, we saw people bait black bears by using 
chocolate waste products to fill small culverts known as bait 
stations. It is unlawful in North Carolina to place processed 
food products as bait in any area with an established season 
for hunting black bears.
    The people who do this are poachers, not hunters. They are 
not the hunter conservationists who have led the conservation 
successes we have seen over the past century and contributed 
with the hunting and shooting sports industry more than $8.4 
billion to help make America the world's premier conservation 
leader. Indeed, it was at the behest of citizens and ethical 
hunters in Tennessee and North Carolina that led to this 
investigation.
    Acting on numerous reports of illegal bear hunting in the 
southern Appalachian mountains, the Service partnered with the 
Forest Service, Georgia Department of Natural Resources and 
North Carolina Wildlife Resources in this undercover 
investigation in 2010.
    The objective was to establish facts to support the 
apprehension and prosecution of individuals involved in the 
unlawful take, possession, sale, purchase, and transport of 
American black bears. Law enforcement officers infiltrated 
poaching circles to document violations including bear baiting 
and illegal take of bears and other wildlife. The Service's 
role in this investigation focuses on the unlawful take and 
commercialization of the black bear.
    Five individuals were indicted on Service-led charges of 
conspiracy to violate the Lacey Act and a violation of the 
Lacey Act. Prior to trial, the United States Attorney's Office 
dismissed charges against two of these individuals; one after 
he pled guilty to a state charge for unlawfully taking a bear 
and a second for his cooperation and limited role. Charges 
against the remaining three defendants went to trial where two 
were convicted and the third individual was acquitted of 
conspiracy to violate the Lacey Act.
    The Service's partnership with state and federal partners 
in investigations like Operation Something Bruin promotes the 
sharing of assets and information to investigate the illicit 
take of wildlife in the most effective way possible. To date, 
the Service has expended less than $10,000, excluding salaries, 
during the investigation. We are hopeful that this small 
investment in activities to counter illegal poaching makes a 
long impact that results in increased protection of the black 
bear.
    In closing, I would like to commend the citizens and 
hunters who recognized this unlawful activity was occurring and 
reported it. They are conservation champions.
    Again, I appreciate the opportunity to testify today and I 
will be glad to answer any questions you may have.
    Mr.  Meadows.  Thank you, Mr. Santiago.
    I missed something, how much did you spend? It was in the 
latter part of your comments.
    Mr.  Santiago.  Ten thousand dollars.
    Mr.  Meadows.  Ten thousand dollars. Okay.
    [Laughter.]
    Mr.  Meadows.  Mr. Tooke, five minutes.
    [Prepared statement of Mr. Santiago follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
          
                     STATEMENT OF TONY TOOKE

    Mr.  Tooke.  Good morning, Mr. Chairman, members of the 
Committee, thank you for the opportunity to share the Forest 
Service's involvement in Operation Something Bruin. I have 
submitted my written testimony for the record, so you have got 
our official comments.
    I wanted to make a few key points about law enforcement 
operations, their value to public lands and their value to 
management of the national forests.
    Forest Service manages public lands in 42 states and Puerto 
Rico. The national forests are some of the most beautiful lands 
in the world and they provide high quality wildlife habitat, 
diverse wildlife and fish populations, forest products and 
unsurpassed recreation opportunities. The conservation mission 
of the Forest Service is recognized worldwide, including right 
here in western North Carolina.
    The Forest Service manages 2.1 million acres of public land 
in North Carolina and Georgia. These national forests are some 
of the most highly visited and treasured landscapes in the 
nation. These lands and forests exist today because not only of 
our visionary leaders from the past, but because of work 
accomplished every day by land managers and the public working 
together to conserve this legacy.
    The Forest Service Law Enforcement Investigation Unit 
provides support to the managers of these lands by protecting 
the public and natural resources. They enforce and investigate 
violations of federal laws, rules and regulations. Two special 
agents assigned to the national forests here in North Carolina 
and Georgia investigate a wide variety of crimes, including 
damage to natural resources, wild land arson, illegal drug 
manufacturing, timber theft, property crimes, archeological 
resource protection crimes and others. Because of the size and 
the scope of this responsibility, Forest Service Law 
Enforcement Investigation routinely works collaboratively with 
other federal, state and local agencies. And that includes the 
protection of wildlife on national forests which is a shared 
responsibility with the states. We are committed to doing our 
part to ensure that we have sustainable populations of wildlife 
for the public to enjoy for generations to come.
    First and foremost, Operation Something Bruin was about 
protecting the public's interest. The operation sought to end 
illegal conduct that denied others access to the benefits from 
public land. Law abiding citizens, which include ethical 
hunters, forest visitors, and anyone else who supports wildlife 
conservation, all of these deserve access to these rich and 
valued public resources. Operation Something Bruin was a joint 
law enforcement operation between federal and state agencies.
    The Forest Service participation in this operation focused 
primarily on initial violations ranging from resource damage, 
sanitation violations, illegal motor vehicle use, and operating 
a commercial activity on national forests without permits.
    During 2008 and 2009, the Forest Service began seeing a 
trend of illegal activities associated with the use of the 
national forests. Our officers witnessed and members of the 
public reported activities that indicated increased activities 
of illegal baiting, illegal taking of black bear and illegal 
commercial outfitting of hunting services. The reported 
violations were occurring on federal, state, and private lands 
crossing multiple jurisdictions. These complex jurisdictional 
issues combined with the limited investigative resources and 
officer safety concerns led the Forest Service to contact the 
other impacted agencies. The purpose was to combine 
intelligence as well as plan a potential covert operation to 
surface the violations within the respective jurisdictions. 
These coordinated efforts led to the formulation of Operation 
Something Bruin.
    From 2009 through 2013, this operation was managed jointly, 
but each respective agency had supervision and oversight of 
their assigned resources. As a result of the investigation by 
the Forest Service, 18 individuals were convicted of various 
crimes including operating a commercial activity on national 
forests without a permit, illegal placement of bait on national 
forests with the intent to hunt bear, illegal hunting of bear 
on national forest land.
    Three more key points that I would like to make. In the 
course of these prosecutions, the court considered and denied 
challenges to federal jurisdiction while multiple juries 
convicted defendants alleging entrapment.
    One important aspect in the planning of this undercover 
operation was the joint decision by all agencies, including the 
Department of Justice, that if an agent was put in a position 
that would otherwise expose his or her cover, the taking of 
game was authorized. The Forest Service spent a total of about 
$70,000 related to Operation Something Bruin over a five-year 
period.
    These are the facts, but there is one more story of 
Operation Something Bruin I want to conclude with. Forest 
Service law enforcement officers and agents support our mission 
delivery each and every day and I would like to take a moment 
to recognize them this morning for their service. These 
officers work long hours, usually at odd times and over holiday 
weekends so the rest of us can safely enjoy our national 
forests and other public lands. This service comes at a cost to 
these officers and their families, and in some cases with 
great, tremendous sacrifice. So I want to take a moment here 
today to make sure that we honor the service of those who 
protect our public lands and the visitors who enjoy them.
    To conclude, I would emphasize once again that the 
protection of wildlife on national forests is a shared 
responsibility. The Forest Service is committed to doing our 
part to ensure that citizens have sustainable wildlife 
populations for the public to enjoy for generations to come.
    That concludes my comments. I will be glad to answer any 
questions.
    Mr.  Meadows.  Thank you, Mr. Tooke. I would be remiss if I 
did not acknowledge the service of the tremendous law 
enforcement officers of the U.S. Forest Service. I have had the 
unfortunate necessity to be at a funeral of a U.S. Forest 
Service law enforcement officer who was fighting courageously 
in my district and lost his life. And so it does not go 
unnoticed of the sacrifice, not only the ultimate sacrifice 
that he and his family paid, but the daily sacrifice, the 
missing of birthdays and anniversaries and others as they work. 
So this hearing in no way, in no shape or fashion is designed 
to impugn the service of so many great public servants. Thank 
you.
    Mr. Myers, you are recognized for five minutes.
    [Prepared statement of Mr. Tooke follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
          
                    STATEMENT OF GORDON MYERS

    Mr.  Myers.  Thank you, Mr. Chairman. Chairman Meadows and 
members of the Subcommittee, thank you for bringing your 
important work directly to the people of western North Carolina 
and for the opportunity to appear before you this morning to 
discuss our role in Operation Something Bruin.
    The Wildlife Commission's primary mission is to conserve 
North Carolina's wildlife resources and their habitats and 
provide programs and opportunities that allow hunters, anglers, 
boaters, and other outdoor enthusiasts to enjoy wildlife-
associated recreation. That mission is derived from our 
agency's statutory purpose, which includes protection of North 
Carolina's wildlife resources and administering the laws 
relating to those resources. Those resources are held in trust 
by the state for the benefit of the public. Individuals may 
only take them within the constraints of law and regulations.
    To accomplish the law enforcement elements of our mission, 
we use a multi-faceted approach which includes focused 
education, public awareness campaigns, and proactive law 
enforcement. Together, these elements of conservation law 
enforcement encourage ethical conduct by sportsmen, assure 
proper conditions for scientific management of our wildlife 
resources, and secure significant public benefits from those 
resources.
    The achievements resulting from scientific wildlife 
management in North America over the past century have been 
astounding. In North Carolina, restored populations of black 
bear, wild turkey, and white-tailed deer are a just a few 
examples of those long-term achievements. Conservation law 
enforcement is fundamental to that success.
    Information provided to me indicates the U.S. Forest 
Service initiated Operation Something Bruin in late 2009. And 
based on my records, I was first informed of the operation in 
early 2011 when our Law Enforcement Division Chief requested 
authorization to actively assist in the investigation, which 
was funded and led by the U.S. Forest Service. The Wildlife 
Commission values our partnerships and strong working 
relationships with local, state and federal agencies, including 
law enforcement and public safety agencies. We strive to 
operate effectively and efficiently by working with those 
partners to reduce duplication of effort and to leverage our 
resources for mission accomplishment. To that end, we provided 
one undercover officer as well as officers who assisted in the 
execution of search warrants.
    In a letter dated to me May 21, 2015, from the Committee on 
Oversight and Government Reform, references were made to media 
reports citing questionable tactics used in the operation, 
including allegations of entrapment. Entrapment is a complete 
defense to a crime and to the extent that any defendant 
believed he or she was entrapped, the defendant could bring 
that forward in court. Based on my understanding, at least one 
defendant did raise that defense and the issue was determined 
by a jury.
    That letter also referenced concerns associated with the 
circumstances under which wildlife was taken by an undercover 
officer. There is no dispute that wildlife was taken during 
this operation and it is my understanding that on at least one 
occasion, Wildlife Commission Officer Chad Arnold testified as 
to the circumstances. When officers work in an undercover 
capacity, there are times when they may need to take specific 
actions, including the taking of wildlife resources in order to 
maintain their cover or their safety. In addition, the 
potential long-term resource benefits that accrue from 
enforcing our wildlife laws, including the limited taking of 
resources, can protect far more wildlife resources than those 
taken in that undercover capacity.
    That letter also requested information related to charges 
and convictions as well as costs associated with the operation. 
It is my understanding that the prosecuting attorneys reviewed 
all violations prior to charges being filed. It is also my 
understanding that after charges were filed, some charges were 
dismissed, many of which referenced the Petite Doctrine, which 
limits and prioritizes prosecutions if overlapping jurisdiction 
exists. In some cases, plea deals were agreed upon in which a 
defendant pled guilty to some charges in exchange for the 
dismissal of others. The decisions regarding pretrial 
disposition of charges rests with the prosecuting attorney's 
office.
    There have been wide-ranging media reports on the costs of 
Operation Something Bruin, including reports that the operation 
costs several million dollars. Based on review by my office, it 
is my understanding that the direct cost to the Wildlife 
Resources Commission were less than $12,000. This figure does 
not include salary costs which were paid regardless of the work 
performed while on duty.
    In closing, I have worked for the Wildlife Commission for 
the past 24 years and it is truly and honor and a privilege 
every day to work among staff who exhibit the highest level of 
professionalism and dedication to resource conservation. I 
greatly value and respect the important responsibilities of our 
law enforcement officers, just as I value and respect the 
important work that you are doing here today.
    Mr. Chairman, that concludes my testimony and I will gladly 
take any questions.
    Mr.  Meadows.  Thank you, Mr. Myers. Thank you for your 
services.
    Mr. Adams.
    [Prepared statement of Mr. Myers follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                   STATEMENT OF STEPHEN ADAMS

    Mr.  Adams.  Chairman Meadows, Congressman Collins and 
Congressman Duncan, thank you for the invitation to this 
hearing and for allowing transparency and oversight on behalf 
of all citizens of the United States. Additionally, coming to 
the people only shows care and concern to ensure all parties 
are equally represented.
    The Department of Natural Resources supports legal and 
ethical hunting under fair chase conditions. The agency is 
charged with managing wildlife populations under the public 
trust doctrine for all citizens of Georgia. Law enforcement is 
a critical component in ensuring that wildlife populations are 
conserved for present and future generations.
    Today, I will discuss the role and scope of involvement of 
the Georgia Department of Natural Resources in the multi-state, 
multi-agency Operation Something Bruin.
    In 2009, the Law Enforcement Investigative Unit of the 
Georgia Department of Natural Resources was contacted by the 
U.S. Forest Service and requested to participate in an 
undercover operation that would target unknown individuals 
believed to be participating in illegal hunting activities in 
remote areas of the Southern Appalachian Mountains. Illegal 
bear hunting, illegal guiding on federal property, hunting out 
of season and in closed areas, illegal sale of black bears and 
parts and Lacey Act violations were all types of violations 
that were thought to be occurring in this region based on 
citizen complaints and fragmented information given to officers 
over several years. Additionally, hunters had begun to use 
advanced radios, GPS devices, and electronic tracking systems, 
making enforcement and documentation of violations more 
difficult. Research previously conducted show that less than 
ten percent of witnessed wildlife crimes are reported, further 
hampering enforcement efforts. Georgia agreed to participate in 
the operation by furnishing one trained officer during hunting 
season for the duration of the operation. U.S. Fish and 
Wildlife Service, as well as U.S. Forest Service agreed to 
provide the needed supervisory structure, support agents and 
undercover agents. It was also decided that the undercover 
portion of the operation would last no more than three years. 
Supervisors with the Georgia DNR maintained contact with the 
undercover officer from Georgia while he was detached to the 
operation. Authority for the operation and officers came under 
a longstanding Memorandum of Agreement between the Georgia 
Department of Natural Resources and the U.S. Fish and Wildlife 
Service that was last updated in 2006.
    During this operation, there were two black bears that were 
taken in Georgia. These two were taken by an undercover officer 
in 2011. Each of the harvests were made while the officer was 
in a role as a hunter being guided, on duty, and as an official 
act. In addition, both instances were thoroughly documented in 
writing in a Report of Investigation and reported as soon as 
practical to operation supervision. During the 2011 hunting 
season, Georgia DNR records show 690 bears harvested by hunters 
in Georgia with 529 coming from the mountain bear population.
    During the 2013 hunting season, agencies that were 
participating in Operation Something Bruin made the decision to 
end all covert operations and begin the closeout phase of the 
operation. Beginning in December 2013 and continuing until 
February 2014 when the initial arrest warrants were served, 
several tasks were completed by Georgia DNR officers and 
supervisors that provided multiple layers of oversight on all 
charges taken by the Georgia Department of Natural Resources. A 
small number of supervisors who were not aware of the operation 
were briefed on the operation and directed to review all 
Reports of Investigation that involved state charges that 
occurred in Georgia over the course of the operation. Their 
charge was to review the Reports of Investigation, list out 
possible violations, review them to make sure that they were in 
compliance with the Law Enforcement Concepts Policy, confirm 
all elements of the crime were met, they were not duplicative 
and not minor administrative infractions.
    After the list of possible charges were reduced to a list 
that met the previously stated criteria, supervisors with 
Georgia DNR met with prosecutors in each judicial circuit where 
charges were being made and briefed as well as received 
approval to move forward and an intent to prosecute the 
defendants on the crimes outlined in the briefings. After the 
briefings were held, officers secured arrest warrants that were 
signed by judges for each defendant and each charge.
    In addition, a media plan was coordinated to highlight the 
operation in an attempt to deter other violations. The media 
plan was to give an overview of the operation and discuss the 
number and types of charges made. This number continued to 
decrease as the charges went through the previously mentioned 
vetting and oversight process.
    On the first day of the takedown phase, Georgia officers, 
along with law enforcement officers from the U.S. Fish and 
Wildlife Service and U.S. Forest Service, made contact with 
three suspects identified in the operation. Walt Stancil, Cale 
Stancil, and Jerry Parker were all contacted at their residence 
during the early afternoon hours on the first day. All were 
given copies of the search warrant and arrest warrants and the 
state charges and the search process was explained to each by a 
Georgia DNR officer. Georgia DNR has issued and required the 
use of body worn recording devices since 2007. The encounters 
during the takedown phase of all Georgia defendants were 
recorded using these devices, and all recordings have been 
submitted to the committee as requested. Each video of these 
encounters depicts professional, polite and courteous officers 
who complete their jobs but treat the defendants and their 
personal property with respect. I was at Walt Stancil's 
residence for a period of time during his arrest and the search 
of his residence. When his attorney, Mr. Stockton, came to the 
residence, he was allowed to speak privately with Mr. Stancil. 
And while at the residence, Mr. Stockton commented to Mr. 
Stancil in my presence and other officers that he appreciated 
how we were conducting the arrests and searches and they should 
be thankful that we were being respectful to them and their 
belongings. He had never seen a search warrant executed that 
way and that officers normally dump belongings on the ground 
and have little respect for personal property. I told him that 
is not how the agency did things, and not what we saw from our 
officers.
    The remaining search warrants and arrests of the defendants 
in Georgia were executed over the next two days without 
incident.
    In closing, thank you for the opportunity to come and 
testify in front of the committee and I look forward to your 
questions.
    [Prepared statement of Mr. Adams follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
       
    Mr.  Meadows.  Thank you, Mr. Adams. I would like to 
highlight the fact that your agency has been extremely 
cooperative with this committee in terms of the document 
requests, and everything that we have asked for you have been 
willing to provide. And in a time were sometimes that is 
difficult to do, I just want to say thank you on behalf of the 
committee. We have got unbelievable staff on committee and it 
makes their job much easier.
    Additionally, Mr. Myers, thank you. You have agreed to 
provide documents on a rolling basis. We look forward to 
getting those completed documents, but you too have been very 
cooperative in those. And that is what it is all about, it is 
about transparency, it is about restoring trust in government. 
And when we are open and transparent, we know that the rule of 
law is here.
    I think it is important that the nine-year-old girl that we 
heard about in this very first panel, that she understands that 
law enforcement officers are people that she can depend on and 
trust. And in an environment where a lot of the narrative is 
not that, your actions, Mr. Adams and those of your fellow 
officers seek to restore that. And I just want to say thank 
you.
    The gentleman from Georgia is going to have to get out. He 
has made a long trip down and there is not a straight road 
between here and there and so I am going to recognize the 
gentleman from Georgia and then he will be stepping out.
    Mr.  Collins.  I appreciate that, Mr. Chairman. And I 
appreciate it and thank you for those kind words. Thank you for 
allowing me to be here. I just want to say thank you to the 
good folks in this great district. From your representation of 
them, which is outstanding in D.C. and for their turnout today 
on this issue is really amazing. And I think I will come down 
here for all hearings. I just--you know, if I could just sit 
here and look out the window, I would probably have a hard 
time, it is just absolutely beautiful. So thanks.
    One of the issues that I have, and I have served on 
Oversight and Government Reform and still maintain a membership 
there, I just am not there right now. But I do serve on 
Judiciary. And Judiciary has primary oversight of the 
Department of Justice. And unfortunately, especially over the 
last few years, this Department of Justice has chose not to be 
transparent, has chose to be--at times to obfuscate, to give 
half answers. I have had my run-ins with the former Attorney 
General, thank goodness former Attorney General. I was hopeful 
of the new Attorney General to put in a new order of openness, 
but undoubtedly the Department of Justice wanted to claim that 
there are still ongoing criminal cases, decides not to come and 
be transparent about simple things such as the operating 
agreement between North Carolina and the federal Fish and 
Wildlife.
    If they were here--but oops, they are not--they could then 
talk to me about the mutual consideration or consultation in 
the North Carolina agreement with federal and state 
prosecutors. I would love to ask them that question. I guess 
they are too busy.
    I would love to ask them if they actually consulted and 
decided, as we heard in the first panel, about where they were 
going to charge and how they were going to charge, what were 
the decisions made, why are we moving cases, you know, to that 
prosecutorial discretion.
    Again, Mr. Chairman, I would love to ask those questions 
but again, our Department of Justice decides to hide behind 
procedure, when we are not asking questions about cases. I just 
want to know about their thinking. Again, there is a TV show on 
called ``Law and Order.'' My wife loves it, I tolerate it.
    [Laughter.]
    Mr.  Collins.  Because it really condenses our criminal 
justice system into really too often bumper sticker answers, 
but it makes a great statement at the beginning. It says, 
``This is a story about the men and women who enforce the laws 
and the ones who prosecute.'' Today, we have before us those 
who enforce, who put their lives on the line, who represent 
those who do that. And as the son of one who watched his dad go 
out not knowing if he would come home and sometimes when he 
came home bloodied, torn uniform, I understand that. I am just 
highly disappointed that DOJ chose again to hide. I have seen 
this though not only in Oversight, I have seen it in Judiciary 
all the time. It is just sad.
    But let me get to a few things here. One, the Georgia 
Department of Natural Resources, I served in the State House 
with your Commissioner, Mark. Tell him that I am saddened that 
he did not make the long windy road up here, I will have to see 
him about that later, and also Colonel Henderson as well. Give 
them my best.
    Your amount of cooperation, as the Chairman has said, has 
been very cooperative with this committee. You gave me a 
statistic, how much data have y'all turned over to the 
committee?
    Mr.  Adams.  Forty gigabits of data. It was a challenge to 
figure out how to get it there on time.
    Mr.  Collins.  I can imagine. But it was turned over. And I 
think one of the things that--that also listed some costs. What 
are some of the cost estimates or what costs, because there has 
been a lot of numbers thrown around. We just heard $10,000, 
many in the audience was not sure about that, but just from 
Georgia's perspective, cost on this operation.
    Mr.  Adams.  There were no direct costs related to the 
operation other than salary of the undercover officer that was 
involved, and limited supervisory oversight. The takedown 
phase, there was a small amount of travel incurred. This is a 
guess, probably less than $5000 and that is a high estimate.
    Mr.  Collins.  Okay. One of the things that has also been 
brought up here is this cooperative agreement issue. And I want 
to highlight something here, because we do have a cooperative 
agreement in North Carolina, a different agreement, if you 
would. Your contention is, and I am assuming from other issues 
that you have with Forest Service, that you are operating under 
the 2007 agreement I believe, or 2006 agreement. Is that 
correct?
    Mr.  Adams.  That's correct; yes, sir.
    Mr.  Collins.  From what you know of this agreement--and 
you may not and if you do not, that is fine--but maybe Forestry 
could answer this. Are there any applicable differences between 
this agreement that would have necessitated the need for this 
agreement as opposed to what Georgia is operating under and has 
been operating under. Mr. Adams first and if you would care to 
comment on that.
    Mr.  Adams.  Not familiar with the North Carolina 
agreement, although I can speak to the Georgia agreement. The 
Georgia agreement which is signed between the director of our 
agency, or Commissioner, and the Special Agent-in-Charge of the 
Southeast Region--I hope I have got that term correct--grants 
authority to rangers with the Georgia Department of Natural 
Resources who have passed the field training status to enforce 
several federal statutes such as the Lacey Act, CITES, 
Migratory Bird Treaty, ESA and other--Endangered Species Act-- 
and other things.
    The agreement also provides deputization of federal 
officers as Georgia conservation officers. So it is a dual back 
and forth.
    Mr.  Collins.  So they can come in and----
    Mr.  Adams.  That is correct.
    Mr.  Collins.  And before I go to Mr. Santiago, because I 
want your interpretation. You operated, even though it has been 
brought up that there is not an agreement with Georgia per se 
in this, you are under, and all of your agreements operate off 
of that one, it would cover this completely; correct?
    Mr.  Adams.  That is correct. We consulted with counsel for 
Georgia DNR and we felt like that the longstanding MOU which 
was last updated in 2006, prior to this operation's inception, 
would cover our officers in the performance of their duties.
    Mr.  Collins.  Mr. Santiago, would you agree with that 
assessment?
    Mr.  Santiago.  Yes. With one clarification that the 
agreement is signed by our Chief of Law Enforcement at our 
headquarters and the Regional Director.
    Mr.  Collins.  Okay. But as far as the operational aspects 
of this, because--I think there has been some confusion. Why 
was this signed, why did Georgia not, but as far as from the 
operational perspective, what Georgia operated under, and 
because North Carolina and maybe Mr. Myers, you want to say why 
did y'all sign a new agreement or did you not have an original 
Memorandum of Understanding?
    Mr.  Myers.  Congressman, we are operating under an 
agreement with U.S. Fish and Wildlife Service from 2006. It is 
much like the agreement that State of Georgia has except in 
North Carolina we do not have the reciprocity where the federal 
agents can enforce the state laws. That is the only difference.
    Mr.  Collins.  That is why you would have felt the need to 
have had this other agreement; correct?
    Mr.  Myers.  Well, the other agreement with the Forest 
Service--the agreement with the Fish and Wildlife Service gave 
our officer authority out of state.
    Mr.  Collins.  Right.
    Mr.  Myers.  The agreement with the Forest Service 
established the relationship on this operation relative to 
administrative costs and other things.
    Mr.  Collins.  Okay. I am going to wrap up here. I 
appreciate the Chairman's indulgence and the gentleman from 
South Carolina as well. I think one of the things that was 
brought up by the Chair in this, and it goes back to something 
that has been in the news lately. There is a lot of good that 
can come from body cameras, there are a lot of questions still 
out there on how you use them, how you are not using them. When 
they are off, when they are not. But I think this is an example 
that could be used, because even the attorney for the family 
and the family itself, when you were able to show that and the 
respect and the treatment, even in a very difficult situation 
for all involved, not just the officers but also the families 
involved, I think showed that there was a way to do that. And I 
am proud of Georgia for doing that and the way it was handled 
and your turning over.
    I appreciate the hard work of all in this. Nobody wants to 
illegal hunt. I grew up hunting. You do it the right way. But 
also the federal government has to be very much aware of the 
perception that many times occurs in this in these kinds of 
operations when there feels like there was, as was said 
earlier, what is entrapment in this defense. There is a very 
legal definition of entrapment and, you know, that is what I 
think is concerning to many.
    So I think there are a lot of questions raised here. I will 
go back to what I started with though, what you are working 
through and I appreciate you being willing to sit at this panel 
and testify. And I am sure DOJ is listening somewhere. I am not 
on their best list and I am not making it again today, but 
again, I wish DOJ would share the same transparency issues that 
members of Congress do and that you showed here today.
    And with that, Mr. Chairman, I yield back and I do excuse 
myself and I do appreciate the opportunity.
    Mr.  Meadows.  I thank the gentleman. North Georgia is very 
fortunate to have you representing them and I thank you for 
taking the time away from your family to come here and 
hopefully allow for greater transparency. Thank you.
    Mr.  Collins.  Thank you, I appreciate it.
    Mr.  Meadows.  So with that, I am going to recognize the 
gentleman from South Carolina, which by the way is the Vice 
Chair of the Sportsmens Caucus, so he is very familiar with a 
number of these things. The gentleman from South Carolina is 
recognized.
    Mr.  Duncan.  Thank you, Mr. Chairman. I am an avid 
outdoorsman, love to hunt and fish and travel to do that.
    I am just trying to get my head wrapped around the impetus 
for Operation Something Bruin. So Mr. Santiago, how did this 
originate? Who contacted who and how did all this begin?
    Mr.  Santiago.  Basically in years prior to the 
investigation, citizens and hunters in Tennessee, North 
Carolina reported illegal bear hunting to state wildlife 
officers. And acting on these reports, the Service, U.S. Forest 
Service, Georgia DNR and North Carolina Wildlife Resources 
initiated this investigation basically from the concerns of 
citizens and hunters.
    Mr.  Duncan.  So let me go to North Carolina. Mr. Myers, I 
do not think you were the Executive Director then, but maybe 
you can answer this. So North Carolina was seeing, and Georgia, 
were seeing large amounts of baiting activity, illegal bear 
pens--we call them pens in South Carolina--trespass, all these 
activities, and transport. You were apprehending or uncovering 
gall bladders that were being prepared to ship or were crossing 
state lines. You were hearing from the FBI that these gall 
bladders were being apprehended or confiscated in other states 
or ports going out of the country. Is that what you are telling 
me?
    Mr.  Myers.  Congressman, based on my information, the 
United States Forest Service began getting reports in 2009 when 
this project was initiated, this operation. And our Colonel 
came to me in early 2011 after he had attended a meeting and 
was briefed on the situation, and in that meeting it is my 
understand that there was enough compelling information that he 
felt it would be beneficial for the Wildlife Resources 
Commission----
    Mr.  Duncan.  Were these anonymous tips or were these 
actually interviews? Did you have someone come in and they 
interviewed and they told you specific instances of illegal 
harvest, baiting, gall bladder sales, or all that?
    Mr.  Myers.  I do not know the source of the information.
    Mr.  Duncan.  Because anybody can call anonymously. And I 
would believe that there are a lot of people out there--based 
on my history in the state legislature on the committee that 
handled all of our DNR wildlife issues, there are people out 
there that do not want bears killed, period. And they will 
raise allegations at the drop of a hat to stop it from 
happening. And so if this was an anonymous tip line, that is 
one thing. If you went out and interviewed people that were 
making these allegations and began an initial investigation 
from the state wildlife offices that uncovered an enormous 
activity in North Carolina, western North Carolina and Georgia 
and South Carolina--is that what you are telling me? That is 
what I am asking.
    Mr.  Myers.  This operation was not initiated by the State 
of North Carolina.
    Mr.  Duncan.  Georgia?
    Mr.  Adams.  I guess a couple of things. In Georgia, just 
to clarify earlier testimony, bear, feeding of wildlife is 
legal in Georgia. It is when you introduce gun powder that it 
becomes a crime. The exception to that, however, is bears. 
There is a specific statute. It is O.C.G.A. 27-3-27, that makes 
it illegal to place feed to congregate bear populations. Bears 
can be habituated to become dependent upon humans. It causes 
them to be problem bears and problem bears generally become 
dead bears. So there is a specific state law, absent of 
hunting, that prevents the congregation of black bear 
populations which is an admitted activity that was being done 
by one of the defendants.
    We had officers who would, for many years, encounter people 
who were training dogs. And that was legal, there was a legal 
training season. There was convenience store talk and things 
like that, anecdotal evidence, that there was more than 
training occurring sometimes. Training is a legal activity, we 
certainly support it, it is something they could do.
    Additionally, most of the areas that we are talking about 
are remote areas that are between western North Carolina and 
northeast Georgia----
    Mr.  Duncan.  Can I ask you a question real quick?
    Mr.  Myers.  Yes, sir.
    Mr.  Duncan.  Is bear baiting, that training, is that a 
legal activity?
    Mr.  Myers.  It is a legal activity certain times of the 
year. It is not legal to hunt bears with dogs in north Georgia. 
It is legal in south Georgia, it is not legal for the mountain 
population of black bears in Georgia.
    Mr.  Duncan.  Thank you.
    Mr.  Myers.  So there was a lot of anecdotal talk that our 
officers in the area, uniformed officers, heard of people being 
guided, training being used as a guise for hunting and we heard 
that. Undercover officers during the course of this operation 
heard defendants say ``you do not have a gun, you are not 
hunting.'' And I am paraphrasing here. So we did feel like 
there was some activity. But we were contacted by the U.S. 
Forest Service to start this operation.
    Mr.  Duncan.  U.S. Forest Service, were y'all contacted? I 
mean I know you have got a limited number of officers and what-
not out there. Were you contacted by outside sources--based on 
testimony, that is how this thing began, and did you verify 
those outside sources? Did y'all investigate, interrogate, 
question, whatever?
    Mr.  Tooke.  Sir, the Forest Service contacted the other 
federal and state agencies and our participation was initially 
focused on different violations, some similar to what has 
already been mentioned, violations ranging from resource 
damage, sanitation violations, illegal motor vehicle use. And 
then operating a commercial activity on the national forests 
without a permit.
    So as our officers began to investigate that, they had 
their own observations as well as reports from the public, from 
citizens, about other crimes, other violations that were 
uncovered, such as illegal baiting of bear, taking of black 
bear during the closed season, and then again the commercial 
sale of black bear parts. And so in 2009, those contacts were 
made to the other agencies and the agencies came together to 
share information and look into the situation as a whole.
    Mr.  Duncan.  So there were allegations that black bear 
parts were being sold across state lines. What evidence was 
there? Were these being seized at airports, being shipped by 
UPS? Were these being seized at ports on cargo ships going out? 
I mean what evidence was there?
    Mr.  Tooke.  I do not have the specific evidence. I just 
know that there were reports of that and that is what they 
uncovered during their investigation.
    Mr.  Duncan.  I am going to go that it is hearsay. And so 
let me shift gears here a little bit. Does U.S. Forest Service 
permit commercial activity hunting guides? Not talking about 
rafting on the Nantahala. Does the U.S. Forest Service permit 
hunting guides on U.S. Forest Service property in western North 
Carolina and north Georgia?
    Mr.  Tooke.  Yes. We have operator and guide permits on 
multiple national forests across the country. We do have legal 
outfitting and hunting guide permits.
    Mr.  Duncan.  Is most of the property considered game 
management area, is it open to public hunting?
    Mr.  Tooke.  All of the national forests in North Carolina 
are in what is called game lands areas, all of the lands here 
in North Carolina.
    Mr.  Duncan.  Okay. Just for my edification, are the 
permits restricted--if I am an outfitter and I want to take 
folks hunting and I get a commercial operator's permit as an 
outfitter from the U.S. Forest Service, am I restricted to a 
certain area?
    Mr.  Tooke.  The permits I think vary. It depends on what 
the applicant is asking for. Some of them may request certain 
parts of the forest, some of them may request the entire part. 
I do not have the specific details on the ones that we have.
    Mr.  Duncan.  I know out west if you are a guide and you 
are permitted, you are usually permitted for use days on 
certain areas and you are restricted to those use days and 
those areas.
    Mr.  Tooke.  Yeah, and I think some of them may be for 
certain time frames and others different time frames.
    Mr.  Duncan.  If y'all suspect illegal guiding activity, 
are you investigating that? You are going out and meeting with 
the people that were supposedly taken hunting?
    Mr.  Tooke.  I would say that our officers probably did it 
a variety of ways, but yes, they could do that.
    Mr.  Duncan.  Are these permits for just big game or do you 
have to issue permits for people doing any commercial guiding, 
for turkey hunts, trout fishing, that sort of thing?
    Mr.  Tooke.  It would be for whatever is legally available, 
whatever the legal season is during a legal time, whatever 
could be legally hunted.
    Mr.  Duncan.  How many of the cases involved illegal 
commercial activity on U.S. Forest Service property with regard 
to Operation Something Bruin?
    Mr.  Tooke.  I do not have the specific numbers. I know we 
brought forward 24 individuals. There were 18 that were charged 
and convicted and there were also 10 arrests for breaking of 
federal laws, rules, and regulations. And some of those did 
include operating a commercial operation without a permit.
    Mr.  Duncan.  I am trying to get my head around 
jurisdiction on federal and state. Who owns the wildlife that 
is out there? Who controls that? Is that the State of North 
Carolina or is that federal?
    Mr.  Tooke.  On federal lands, on national forests, we have 
concurrent jurisdiction with the states to enforce wildlife 
laws on those lands.
    Mr.  Duncan.  So can North Carolina wildlife officers 
conduct their normal activities on U.S. Forest Service 
property?
    Mr.  Tooke.  We have concurrent jurisdiction.
    Mr.  Duncan.  Concurrent jurisdiction, okay.
    I think this next question I have is probably more for the 
Justice Department, but I am curious about the directive to 
deny probation. Were any of you involved in that directive?
    Mr.  Tooke.  I did not hear the first part. I am sorry, 
sir, the first part of your question.
    Mr.  Duncan.  Were either of you involved in the directive 
in terms of to deny probation? Were you aware of it, were you 
involved in it?
    Mr.  Tooke.  That was determined by the prosecutors, if I 
am understanding your question.
    Mr.  Duncan.  There was an email that was provided the 
committee that apparently directs the prosecutors to deny 
probation to some of these defendants, assuming they were 
convicted.
    Mr.  Tooke.  Yes, sir, that was totally their decision.
    Mr.  Duncan.  How about change of jurisdiction from a local 
state court to the federal magistrate?
    Mr.  Tooke.  Totally their decision.
    Mr.  Duncan.  U.S. Fish and Wildlife, you concur?
    Mr.  Santiago.  Yes.
    Mr.  Duncan.  Justice Department? Okay.
    How do you respond to the allegations of property damage 
for seized items? And I guess I will start with you, Mr. 
Santiago.
    Mr.  Santiago.  Through the process of the search warrants, 
the Service did not confiscate any items.
    Mr.  Duncan.  Has there been a specific investigation into 
the allegations of the defendants who had property seized as to 
whether that property was damaged by elements of the Fish and 
Wildlife Service or North Carolina and Georgia law enforcement?
    Mr.  Santiago.  I have no knowledge of any allegations of 
damage.
    Mr.  Meadows.  If the gentleman will yield.
    Mr.  Duncan.  Allegations.
    Mr.  Meadows.  Mr. Tooke, are you aware of any then?
    Mr.  Tooke.  In the search warrants, in the property that 
was seized, all these warrants were approved by judges, they 
were all reviewed by them. Our officers----
    Mr.  Meadows.  That was not the question. That is a good 
answer to a question that was not asked. But that was not the 
question.
    You are talking about seizing of property. Are you aware of 
any improper seizing of property or improper holding of 
property----
    Mr.  Santiago.  No, sir.
    Mr.  Duncan.  And damage.
    Mr.  Meadows.  --and resulting damage.
    Mr.  Santiago.  No, sir. They followed the federal rules of 
evidence in both seizing it, taking care of it, and returning 
it, what has been returned. I am not aware of any damage.
    Mr.  Duncan.  The committee has been made aware of that and 
the defendants have raised this issue. Whether they have raised 
it with North Carolina and Georgia or the feds, I am not sure, 
but the issue has been raised or otherwise, I would not know 
about it.
    So what is the process--for the people that are here, what 
is the process for some sort of either reimbursement or an ``I 
am sorry'' from the federal government or the local law 
enforcement for damage to items seized? What sort of recourse 
do they have? So what would be the step? If one of these folks 
that are out here that may or may not be defendants in these 
cases that had items seized that were damaged, what would be 
their recourse? What would the process be? Because they are 
wondering. If an antler was sawed off--I mean you cannot 
replace, that is a trophy, you cannot replace that. Why in the 
world was it sawed off? What is the ramifications or what is 
their recourse rather for dealing with that? Mr. Santiago.
    Mr.  Santiago.  There is a tort claim process where a 
subject can file a complaint about the damages.
    Mr.  Meadows.  So you are saying they need to sue the 
federal government?
    Mr.  Santiago.  Well, there is a process for it.
    Mr.  Meadows.  But that does not normally end well. Is that 
what you are saying, is that is your answer if you did it 
improperly?
    Mr.  Santiago.  I am not referring to this particular 
investigation, but in circumstances where there are some claims 
about damages, that is the way that we normally handle those 
claims.
    Mr.  Duncan.  Mr. Myers, if North Carolina was involved in 
the--I will not say illegal seizing because there is an 
investigation going on and items that were a part of--were 
wildlife trophies and other things, probably could be seized 
and be justified, but if they were damaged, what is the 
recourse for the people? What would be the process, who would 
they talk to within North Carolina DNR for that? Because--yes, 
sir.
    Mr.  Myers.  Well, we would be contacted and I will preface 
that there is ongoing litigation relative to a tort claim and 
so I would say that the process would be to contact us and we 
would advise them of the tort claim process, which they can 
file a tort claim and there has been one filed in North 
Carolina. I will also say that we were not the custodians of 
evidence in Operation Something Bruin.
    Mr.  Duncan.  I do not know if Georgia was involved in any 
of that. Sir?
    Mr.  Adams.  I think we took very few things. For example, 
we had a computer person come in and we imaged hard drives 
instead of taking things. And our process for collecting 
evidence like that is to photograph it, document it, and to say 
what condition it is in. Again, in this operation, we were not 
the custodians, however, we may have seized some things 
pursuant to the search warrant and we have not been made aware 
of any complaints of anything from Georgia that was taken. And 
it would take a simple phone call, probably follow up with a 
letter, saying what was damaged. We would probably internally 
look at evidence photographs to make sure that it was not in 
that state before we got it. And then we would move forward. 
But that would be how we would handle it. We have not received 
any complaints of anything being damaged that Georgia DNR took.
    Mr.  Duncan.  They would be rightfully upset, and I would 
be upset, if one of my trophies had been damaged, especially if 
I was--if the case was adjudicated and I was found not guilty 
and they returned my seized items and they are damaged, I am 
going to be upset.
    So are you gentlemen willing to provide to the audience in 
some shape, form, or fashion, maybe through the committee, some 
sort of steps of recourse on who they can contact. Not a 
negative way, and I am going to appeal to the people that have 
had their items damaged, there is a process. Let's get to that 
process for some sort of recourse short of suing the federal 
government, which I think is obtuse. So let's try to work 
through this, because the committee has been provided evidence 
or at least allegations that things have been damaged.
    Mr. Chairman, this has been a good hearing. I am going to 
yield to you. I may have some more questions as I think through 
this. I yield back.
    Mr.  Meadows.  So let me go ahead and follow up on that 
question, Mr. Tooke.
    Were you the custodian of all the seized equipment?
    Mr.  Tooke.  I do not know if we were----
    Mr.  Meadows.  Was the U.S. Forest Service, not you 
personally. I did not say it was in your garage.
    Mr.  Tooke.  I do not know if we were of all of it. I know 
we did have evidence that we seized and I think some of it has 
even been returned. And they followed the federal rules of 
evidence as the process and constantly work with the Justice 
Department in all phases of executing that.
    Mr.  Meadows.  Where was it held?
    Mr.  Tooke.  I am not sure where we----
    Mr.  Meadows.  So you do not know where you held it?
    Mr.  Tooke.  No, sir.
    Mr.  Meadows.  Was it in a conditioned space?
    Mr.  Tooke.  Pardon me?
    Mr.  Meadows.  Was it in a conditioned space? Because one 
thing that is for sure if it was not, it will mildew in western 
North Carolina.
    Mr.  Tooke.  Right. Whatever is required in the federal 
rules of evidence is what our officers followed.
    Mr.  Meadows.  All right. So how do you respond, since you 
are the custodian, to the fact that there was damage to some of 
the items. Is that true or not? Did you take pictures before?
    Mr.  Tooke.  Not that I am aware of.
    Mr.  Meadows.  Did you take pictures before?
    Mr.  Tooke.  I am not sure. Whatever the steps they were 
supposed to follow, we looked into that----
    Mr.  Meadows.  Well, you have got counsel here, did you 
take pictures before where you have a before and after. Yes or 
no?
    Mr.  Tooke.  I am not sure.
    Mr.  Meadows.  You are not sure, okay. Let me go on a 
little bit further because this is extremely troubling. I 
understand that you still have stuff in--somebody mentioned 
that you still have stuff that you are keeping in your custody 
right now?
    Mr.  Tooke.  I think we do, sir.
    Mr.  Meadows.  That it is important to your investigation. 
Is that correct?
    Mr.  Tooke.  There are ongoing investigations, yes.
    Mr.  Meadows.  I did not ask that. Is it critical to your 
investigation? I know there are ongoing investigations. Is what 
you are holding critical to your investigation, or are you just 
holding it?
    Mr.  Tooke.  No, sir. What is being held I would say is 
important to the investigation.
    Mr.  Meadows.  All right. So let me--you know, I have 
complimented both state agencies on their response to this 
committee. Is there any particular reason why your response, 
Mr. Santiago, and yours, Mr. Tooke, is less than voluminous?
    Mr.  Santiago.  We still have some open aspects of the 
investigation.
    Mr.  Meadows.  I understand that. Are you saying--I got no 
documents from you. Are you saying that there is not one single 
document that you could have sent this committee that was not 
involved with an ongoing investigation? Not one.
    Mr.  Santiago.  As far as I know, the department and the 
agency staff is in conversations about what information can be 
released.
    Mr.  Meadows.  So you are going to release it?
    Let me tell you what I am concerned about. I get two 
letters from two different agencies--do y'all work in the same 
building? You do not. I mean I know the answer. Do you work in 
the same building, Mr. Santiago?
    Mr.  Santiago.  No.
    Mr.  Meadows.  Do you, Mr. Tooke?
    Mr.  Tooke.  No, sir.
    Mr.  Meadows.  How can I get two letters with the exact 
same wording except for one sentence, one day apart? How can I 
do that if there is not a coordinated effort to make sure we 
did not get information. How does that happen? Mr. Santiago.
    Mr.  Santiago.  I cannot answer that.
    Mr.  Meadows.  Mr. Tooke?
    Mr.  Tooke.  We know that the committee has requested 
documentation. I think we provided one or two.
    Mr.  Meadows.  You provided two documents.
    How many gigabits did you provide, Georgia?
    Mr.  Adams.  Forty.
    Mr.  Meadows.  Forty gigabits and you provided two 
documents.
    Mr.  Tooke.  Yes, sir.
    Mr.  Meadows.  One of which was just a list and description 
of federal charges. Would you say that that is really trying to 
be open and transparent, Mr. Santiago?
    Mr.  Santiago.  We provided----
    Mr.  Meadows.  Yes or no. Is it open and transparent?
    Mr.  Santiago.  All I can say is that we have ongoing 
investigations and they are looking at what information can be 
released.
    Mr.  Meadows.  Since you are going to respond the same way, 
let me ask it a little bit differently. Are you willing to 
commit here today to give to this committee the necessary 
documents that give the background, the process of where we 
are--are you willing to commit to give those to the committee 
as long as they are not in an ongoing investigation of that 
particular individual? Can I have all the other documents? Mr. 
Santiago, are you willing to agree to that?
    Mr.  Santiago.  Yes.
    Mr.  Meadows.  Okay. Mr. Tooke.
    Mr.  Tooke.  Yes. They are being reviewed and as soon as 
those reviews are completed and people allow us to do that, 
yes. But there are ongoing investigations and all these 
documents are being given a thorough review by the Department 
of Justice and others.
    Mr.  Meadows.  So are they reviewing your confiscation of 
private property as well?
    Mr.  Tooke.  The documentation on that?
    Mr.  Meadows.  DOJ. Yeah, the documentation.
    Mr.  Tooke.  The prosecutors, yes.
    Mr.  Meadows.  Okay. Mr. Santiago, your opening testimony 
was interesting because you said that the reason that the U.S. 
Fish and Wildlife got involved is because you saw bear 
populations decreasing. Is that correct?
    Mr.  Santiago.  That is correct.
    Mr.  Meadows.  How do you reconcile that with the North 
Carolina Wildlife Commission biologist who says that, ``Bear 
population is the highest it has been in 100 years, between 
6500 and 7500.'' How do you reconcile that?
    [Applause.]
    Mr.  Meadows.  How do you reconcile that?
    Mr.  Santiago.  I believe what I said was that the poaching 
and the take of American black bear may affect the populations 
in the U.S.
    Mr.  Meadows.  Well, there are a lot of things that may 
happen, but we did--you spent money based on what you said had 
happened. You know, I mean you are really--because they are 
looking at extending the season on black bear. And you are 
saying that there is just such a devastating effect by this 
poaching ring, that you got involved. How do you reconcile 
those two?
    Mr.  Santiago.  Again, what I said was that the continuing 
illegal take of American black bear may increase commercial 
demand of its parts, eventually have a negative impact on its 
population.
    Mr.  Meadows.  I guess my question then, Mr. Santiago, is 
why look at western North Carolina, because that could be true 
all over the United States. And we are seeing an increase in 
population here. So why would you focus just on western North 
Carolina? Is it because you had a successful poaching operation 
20 something years ago, that you found some guilty folks there? 
Is that why you got involved in western North Carolina?
    Mr.  Santiago.  Well, my guess is that this was the result 
of the information received from the field by the different 
investigating agencies.
    Mr.  Meadows.  I yield to the gentleman from South 
Carolina.
    Mr.  Duncan.  I want to ask, have y'all done physical 
survey of the number of black bears in the Great Smoky 
Mountains area?
    Mr.  Santiago.  I have no information about that. I would 
have to look into it.
    Mr.  Duncan.  How are you coming up with that determination 
that bear numbers are down?
    Mr.  Santiago.  That was in preparation for the testimony. 
I do not have that information.
    Mr.  Duncan.  The reason I ask that is--and this is a side 
track for just a second, Mr. Chairman--is we continually see 
agents of the federal government using computer models to try 
to extrapolate and figure out how many numbers of black bear 
there may be, how many numbers of red snapper there may be. 
Guys in lab coats sitting up in a cubicle in Washington, D.C. 
somewhere coming up with some sort of figure of what they 
think, and not listening to the people out in the field. Not 
listening to the State of North Carolina on the number of bears 
here, and not listening to the people on the Gulf of Mexico on 
the number of red snapper that are actually being seen or 
caught, released or taken on the boat for their bag limit. And 
these computer models are affecting what the American taxpayers 
can benefit from through recreational activities of sport 
hunting or sport fishing. And so this is not directed at you, 
it is directed at your agency and it is directed at NOAA and it 
is directed at the other federal agencies, because we 
continually see this, Mr. Chairman, where they are using 
computer models and not actual data.
    I would ask how did North Carolina come up with that 
number.
    Mr.  Myers.  Congressman, we use harvest data on an annual 
basis to try to determine black bear population.
    Mr.  Meadows.  Actual data.
    Mr.  Duncan.  Actual data. Using sightings, using trail 
cameras, using other things; right? Okay.
    Mr. Chairman, I yield back.
    Mr.  Meadows.  Two other things before we finish up here, I 
need to get some clarity on.
    One has to do with this memo that was signed after federal 
and state agents got together. Now there was an allegation made 
in the first panel that that was signed after there was 
actually activity going on. Is that the case? Mr. Tooke, Mr. 
Santiago, either one of you.
    Mr.  Tooke.  Sir, the Memorandum of Understanding that the 
Forest Service signed with the State of North Carolina was 
signed in February 2012.
    Mr.  Meadows.  Right.
    Mr.  Tooke.  And it is my understanding that we did not 
have any search warrant, state executed, or any arrests until 
about a year later in 2013.
    Mr.  Meadows.  But were state and federal agents working 
together without an agreement, entering into conversations and 
hunts with other people? Now search warrants are a different 
thing. The one is working together to build a case, but search 
warrant is a totally different question.
    Mr.  Tooke.  The operation could have went forward without 
the specific Memorandum of Understanding. It was just 
determined that----
    Mr.  Meadows.  Well, that disagrees with what Mr. Myers was 
saying earlier in his testimony. He said that y'all needed an 
agreement to work together. I guess if you did not need the 
agreement, why did you sign it in February? Maybe that is the 
way I need to ask it.
    Mr.  Tooke.  There was already an existing agreement.
    Mr.  Meadows.  That is correct. So if there is an existing 
agreement, why did you sign one in February? I mean why would 
you need one in February if there is already an existing one? I 
am confused.
    Mr.  Tooke.  Okay, so the magnitude of the operation was 
increasing and it was determined that this particular--most of 
it focused on western North Carolina, but not all of it--that 
it would be helpful to make sure we were clear on roles and 
responsibilities, how information and intelligence would be 
coordinated. It was non-monetary except for just--it was in 
there that the Forest Service could cover some incidental 
expenses like fuel of a state officer working on federal land. 
And so we thought that another--this particular MOU or 
agreement could be helpful to go through the rest of the 
operation.
    Mr.  Meadows.  So magnitude in that a week or 12 days 
prior, as was testified in the first panel, you found something 
and you said well, we had better go and get a memo of 
understanding because the magnitude is getting greater? Because 
that is what they are saying, is 12 days after that, you signed 
this agreement. Is that correct?
    Mr.  Tooke.  Twelve days after what, sir?
    Mr.  Meadows.  After some type of--you heard Mr. McLean, he 
was talking about it. It was basically some type of interaction 
on behalf of federal and state agents together that then you 
went back and signed it.
    Mr.  Tooke.  I am not aware of that specific incident. That 
was not the purpose of this at all.
    Mr.  Meadows.  So your testimony here today is that you had 
an existing agreement and that the February 2012 agreement was 
a clarifying agreement; is that correct?
    Mr.  Tooke.  We have concurrent jurisdiction with the 
states on national forests.
    Mr.  Meadows.  You testified to that already. I am asking 
you a specific question. Is the document that you signed in 
February of 2012, was that a clarifying document to your 
previous Memorandum of Understanding?
    Mr.  Tooke.  Parts of it.
    Mr.  Meadows.  Or did you need it?
    Mr.  Tooke.  Parts of it were.
    Mr.  Meadows.  So it was new, some parts of it were new.
    Mr.  Tooke.  Well, like the part about incidental expenses, 
that was----
    Mr.  Meadows.  Anything else new?
    Mr.  Tooke.  Most of the agreements are pretty common.
    Mr.  Meadows.  That is not what I asked. I said any--you 
know, you are answering good questions--I mean good answers to 
questions I do not ask. And so, here is what I am asking you: 
What other parts of that memorandum were different?
    Mr.  Tooke.  More clarity around the roles and 
responsibilities for this specific operation.
    Mr.  Meadows.  So basically, you got some anonymous tips 
that said that you needed to have the federal government come 
in here and help Georgia and North Carolina do their job; is 
that correct?
    Mr.  Tooke.  No, sir, it was not based on anonymous tips. 
It was also based on what our own officers----
    Mr.  Meadows.  But Mr. Santiago and you both have said you 
got numerous phone calls. I wrote down ``numerous.'' How many 
is numerous?
    Mr.  Tooke.  I know that our officers got reports from the 
public, I do not know how many.
    Mr.  Meadows.  Okay, Mr. Santiago, you said numerous, how 
many are numerous?
    Mr.  Santiago.  I would have to check on that and see how 
many were.
    Mr.  Meadows.  So it may be two?
    Mr.  Santiago.  I do not have that information.
    Mr.  Meadows.  Okay, so you are going to get that 
information, how many anonymous tips that you got. Will you 
both agree to get that information to me?
    Mr.  Tooke.  If we have the information about how many 
contacts----
    Mr.  Meadows.  Oh, so you are saying that you think that 
you had anonymous tips. Either you got them and you documented 
it or you did not.
    Mr.  Tooke.  I don't know if they were anonymous. I know 
that we got----
    Mr.  Meadows.  Oh, okay. Well, if you can let me know the 
number of tips that you got from the public and when you got 
them, that would be very helpful. Are you both agreeing to do 
that?
    Mr.  Tooke.  If we can do that, sir, yes, we will do that.
    Mr.  Meadows.  So let me come back to the camera. Who put 
the camera on private property? Who put the federal camera on 
private property?
    Mr.  Santiago.  I have no idea.
    Mr.  Meadows.  So you have no knowledge of a federal 
camera?
    Mr.  Santiago.  No.
    Mr.  Meadows.  Okay, Mr. Tooke, who put the camera on 
federal property?
    Mr.  Tooke.  I am not exactly sure but I know all of the 
tactics and the operations were reviewed by supervisors and the 
Department of Justice.
    Mr.  Meadows.  Okay. So all those supervisors--that sounds 
like a prepared answer to the question. So let me ask you this, 
who put the camera on private property? I mean obviously there 
is a supervisor that was involved, so maybe the supervisor 
knows?
    Mr.  Tooke.  They could have, I am not aware that our 
officer put a camera on private property.
    Mr.  Meadows.  Oh, so it was just the allegation, are you 
saying it was on federal property?
    Mr.  Tooke.  No, sir, I am not saying either way. I am not 
aware of our officer putting one on private property.
    Mr.  Meadows.  There was not a federal camera involved?
    Mr.  Tooke.  No, sir, I am not saying that. There could 
have been a federal camera placed on private property. That 
would have been authorized under this operation.
    Mr.  Meadows.  So who did that?
    Mr.  Tooke.  I am not totally sure, sir.
    Mr.  Meadows.  All right, would that person have been 
trespassing? Did they get permission to go on federal property 
and leave a camera?
    Mr.  Tooke.  All of the Forest Service investigation 
started on national forests.
    Mr.  Meadows.  So they just lost their way and ended up on 
private property?
    Mr.  Tooke.  If that had went over onto other lands, other 
properties, our officers, like I said----
    Mr.  Meadows.  According to the testimony, they were a 
quarter of a mile away from federal land. That is what we heard 
in the first panel.
    Mr.  Tooke.  They could have been authorized to do so, sir, 
in this operation.
    Mr.  Meadows.  All right. So let me ask you if that is the 
case, if they ended up on private land, how do we know with 
specificity that all these things actually happened on federal 
lands? If they inadvertently got on private land, how do we 
know that they were on federal land when it happened? Do you 
have specifics on where they were?
    Mr.  Tooke.  No, sir, and I am not saying that----
    Mr.  Meadows.  So your testimony here today is that you do 
not know whether it was on federal land or not.
    Mr.  Tooke.  I do not know for sure. I just know that all 
of the tactics and operations were approved and I know that our 
investigation started on national forests and it could have 
went to other lands.
    Mr.  Meadows.  But would that not have a whole lot to do 
with the federal question in this particular issue? If it did 
not happen on federal lands, how are they being prosecuted 
federally?
    Mr.  Tooke.  Well, for example, under the game lands that 
we have here in North Carolina, it allows for cooperative work. 
And if the state----
    Mr.  Meadows.  Yeah, but it would be a state issue. It 
would be a state question, not a federal question, unless they 
were selling bear parts.
    Mr.  Tooke.  If they asked for our assistance on private 
lands or state lands, under that, we could provide it. At the 
same time, under our concurrent jurisdiction and federal 
jurisdiction, which has already been ruled upon by federal 
jurisdiction and the courts, by multiple courts as well as a 
jury. Our officers would have had the jurisdiction and the 
authority to do that. And it began on national forests.
    Mr.  Meadows.  But not if you did not know where you were.
    Mr.  Tooke.  I am not saying they did not know where they 
were, sir. I am saying I do not know----
    Mr.  Meadows.  You knew where you were for prosecuting. You 
just did not know where you were for the camera.
    Mr.  Tooke.  I am not saying that. I am saying I do not, 
specifically myself, know exactly where they were. But I am 
saying that our officers, I know that if they went on those 
lands, they knew where they were and they were following what 
they were supposed to.
    Mr.  Meadows.  Last question. How much of your $10,000 that 
you said that you spent, which I would like a better accounting 
of that, will you be glad to give this committee a better 
accounting? You are saying the total cost was $10,000 for the 
U.S. Fish and Wildlife.
    Mr.  Santiago.  Less than $10,000.
    Mr.  Meadows.  How much of that less than $10,000 was paid 
to someone to guide your agent?
    Mr.  Santiago.  I would have to research that.
    Mr.  Meadows.  Was any of it?
    Mr.  Santiago.  I would have to research it.
    Mr.  Meadows.  So how would you know that it is less than 
$10,000 if you do not know the breakdown?
    Mr.  Santiago.  Because when we conduct investigations----
    Mr.  Meadows.  So you were preparing for the testimony, you 
said well, this is what it is.
    Mr.  Santiago.  No. We have undercover procedures and 
undercover accounts. And when we open investigations, we keep 
undercover books and track all the expenses on each 
investigation.
    Mr.  Meadows.  So did you pay people to take you hunting, 
your agent hunting?
    Mr.  Santiago.  I would have to review the record.
    Mr.  Meadows.  So you prepared for this testimony and you 
do not know the answer to that question?
    Mr.  Santiago.  No, I do not.
    Mr.  Meadows.  Okay. Mr. Tooke, do you know the answer to 
that question? How much of $70,000 was paid to folks to take 
them hunting?
    Mr.  Tooke.  I do not have that with me today, but we have 
receipts, itemized receipts, an itemized accounting of all the 
$70,000 that was spent.
    Mr.  Meadows.  So when you hired these guides to take you, 
was it 1000, was it 5000, was it 100?
    Mr.  Tooke.  I do not know, sir. Out of the 70,000, 44,000 
was spent just about all on vehicle expenses and equipment and 
then in the latter phases of the operation, the other 26,000 
was spent on travel expenses for officers to execute the search 
warrants and support the----
    Mr.  Meadows.  So 44 and 26.
    Mr.  Tooke.  Is 70,000, yes.
    Mr.  Meadows.  So then you did not have any money left to 
pay the guides.
    Mr.  Tooke.  I am not saying that there was not some of it 
spent on that.
    Mr.  Meadows.  I am just saying the numbers are not adding 
up. Either you did not pay them much or they are very bad 
businessmen. I am just trying to figure out, since this was a 
pay-to-play kind of thing. It is troubling to me that we are 
looking at all of this and there is not the money there.
    Mr.  Tooke.  It will be in the itemized accounting, sir.
    Mr.  Meadows.  And when can we expect that, Mr. Tooke?
    Mr.  Tooke.  I cannot say for sure.
    Mr.  Meadows.  Is 30 days enough time?
    Mr.  Tooke.  I cannot say for sure, sir.
    Mr.  Meadows.  Three hundred and sixty five days, is that 
enough time?
    Mr.  Tooke.  I cannot say for sure, but I know as soon as 
those reviews are completed and we are allowed to provide it, 
we will.
    Mr.  Meadows.  I will recognize the gentleman from South 
Carolina. I will let him either ask some questions or do his 
closing remarks, if he would like.
    Mr.  Duncan.  Mr. Chairman, I just have some closing 
remarks. First off, I want to thank all of you for your service 
to states and to the federal government. I do not want anything 
to be construed--we are trying to get to the bottom of concerns 
of our constituents and in our role as watchdogs of the federal 
government on this. And I know the questions were hard and they 
were put forth in a manner that seemed aggressive at times, but 
sometimes that is necessary.
    I do question the impetus and motives which led to this 
operation, based on what I am hearing and what I have seen and 
what I have read.
    I am concerned about the federal question and the ultimate 
decision to prosecute these cases in federal magistrate court.
    I am worried about and very concerned about the issue that 
Mr. Collins raised about federal agents, without probable cause 
and going through the due process of getting a warrant, 
actually got on private property to investigate this.
    I am concerned about the directive to limit and/or deny the 
defendants their right to probation or any recourses that may 
be available to most people when they are facing prosecution.
    And I am concerned that the Lacey Act was used for 
justification of this operation without hard evidence. Y'all 
have not been able to give me any hard evidence. And so I am 
concerned that there were possibly allegations made by outside 
parties or groups to the taking, harvesting of black bear and 
that those allegations may not have been followed up on to 
warrant an investigation of this nature and of this scope.
    And so I want to thank the Chairman for continuing to delve 
into this. I think it is the right thing to do because I think 
this was a very large operation that happened in North Carolina 
and there were some, I think, some very egregious violations of 
folks here in your state.
    So with that, I will yield back.
    Mr.  Meadows.  Well, I thank you. I thank each one of you.
    The questions that I have asked today have been hard but I 
can tell you that they pale in comparison to the questions that 
I have gotten by email, phone call. I face these people in the 
grocery store and time and time and time again I have been 
asked ``what are you going to do about it?'' I mean, ``why does 
my nine-year-old daughter have to worry about the kind of 
treatment that they got.'' And I say that because I have great 
respect for my law enforcement friends all over the place. I 
can look back and see the sheriff, he is a gentleman that has 
prayed with me and for me and vice versa, and there is no one 
that I respect more than my law enforcement guys.
    At the same time, when we allow the federal government--and 
that is where I am coming to this--when we allow the federal 
government to come in and at times not be the best custodian of 
personal property, of allowing some of these things to go on on 
the allegations that I have heard, they are troubling. But the 
biggest issue that I think I have with this may not pertain to 
any of you here. Mr. McLean talked about it early on in his 
opening testimony. When we allow the stacking of misdemeanor 
offenses on what we would believe--you know, five months in 
jail for having a hunting license expired for less than 48 
hours is excessive. It is excessive in my book, I think it 
would be excessive in your book as well. Now sometimes we can 
justify that saying well, we pleaded and they were guilty of 
other things. That is not up to a prosecutor to make that 
decision. It is up to a jury to make that decision and when we 
stop that very fundamental foundational principle within our 
Constitution, it is troubling to me.
    And so I can tell you that the gentleman from South 
Carolina and I talked about that in terms of these particular 
offenses and the way they were stacked. We plan to address 
that. We are coming back.
    You know, western North Carolina is a beautiful place and 
for all those that are listening that think that I am going to 
be soft on those who are violating crimes, you have come to the 
wrong person. I want us to make sure that you adhere to the 
laws until the laws are changed. At the same time, I am not 
going to allow my government to trample on the rights that are 
foundational and, by many, inalienable rights. I am not going 
to allow that to happen and I am going to continue to ask the 
tough questions.
    Mr. Tooke, I thank you for your willingness to be here 
today. I know this was not the most pleasurable thing. I will 
say I am working with you on a number of other issues and I 
want to compliment you on your willingness to engage us on 
those issues as well.
    Mr. Santiago, I would encourage your testimony 
speechwriters to go back and check their facts because your 
opening testimony does not match with the facts that we have 
here in North Carolina. And I am troubled a little bit about a 
narrative that justifies this when indeed it may not be 
represented by the facts.
    So I appreciate your willingness to be here. We are going 
to continue to follow up and look at these issues. I thank you 
both for your commitment to get us the information to the 
committee.
    I want to thank the committee for their very hard work, for 
our law enforcement officers, and really the town of 
Waynesville for not only hosting us but making a lot of these 
folks who have never been to western North Carolina before feel 
welcome.
    I thank the gentleman from South Carolina who is a dear 
friend.
    If there is no further business, without objection, the 
subcommittee stands adjourned.
    [Whereupon, at 12:47 p.m., the subcommittee was adjourned.]

                                APPENDIX

                              ----------                              


               Material Submitted for the Hearing Record
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
